<html>
<title> - OVERSIGHT HEARING ON THE CONSEQUENCES OF FEDERAL LAND MANAGEMENT ALONG THE U.S. BORDER TO RURAL COMMUNITIES AND NATIONAL SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE CONSEQUENCES OF FEDERAL LAND MANAGEMENT ALONG THE U.S. BORDER TO 
                RURAL COMMUNITIES AND NATIONAL SECURITY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE
                                 
                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 28, 2016

                               __________

                           Serial No. 114-41

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                ___________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-957 PDF                      WASHINGTON : 2017                        
_______________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>  
                
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                              ----------
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 28, 2016.........................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement of....................................     5
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     6

Statement of Witnesses:
    Andrew, Jon, Interagency Borderlands Coordinator, U.S. 
      Department of the Interior, Washington, DC.................    21
        Prepared statement of....................................    23
        Questions submitted for the record.......................    25
    Chilton, Sue, Chilton Ranch, Arivaca, Arizona................     8
        Prepared statement of....................................    10
        Questions submitted for the record.......................    13
    Elbrock, Tricia, Animas, New Mexico..........................    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    20
    Pinkerton, LeAlan, Commissioner, Boundary County, Bonners 
      Ferry, Idaho...............................................    30
        Prepared statement of....................................    32
        Questions submitted for the record.......................    35
    Stockholm Walden, Nan, Vice President and Counsel, Farmers 
      Investment Company and Green Valley Pecan Company, 
      Sahuarita, Arizona.........................................    37
        Prepared statement of....................................    38
        Questions submitted for the record.......................    45

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    57
                                     


 
OVERSIGHT HEARING ON THE CONSEQUENCES OF FEDERAL LAND MANAGEMENT ALONG 
       THE U.S. BORDER TO RURAL COMMUNITIES AND NATIONAL SECURITY

                              ----------                              


                        Thursday, April 28, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 1334, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Lamborn, 
Westerman, Hice, Radewagen, Mooney; Dingell, Gallego, Clay, and 
Grijalva.
    Also present: Representatives LaMalfa and Gosar.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order. The subcommittee is meeting 
today to hear the testimony of the consequences of Federal land 
management along the U.S. border to rural communities and 
national security.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the record if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today.
    [No response.]
    Mr. Gohmert. Hearing no objection, so ordered. I also ask 
unanimous consent that the gentleman from Arizona, Mr. Gosar, 
when he arrives, be allowed to sit with the subcommittee and 
participate in the hearing.
    [No response.]
    Mr. Gohmert. If there are no objections?
    Mrs. Dingell. No objection.
    Mr. Gohmert. Hearing no objection, that will be allowed.
    I will now recognize myself for 5 minutes.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. Today we have the opportunity to hear 
testimony from witnesses that must live with the consequences 
of Federal land management every day of their lives. While 
there certainly are benefits to living near responsibly managed 
Federal lands: easy access to recreation, economic boosts from 
tourism, and the opportunity to work the land to provide for a 
family; there are also drawbacks that, in recent years, have 
increasingly threatened the very existence of our rural 
communities; farming, ranching, and timber families; and the 
security of our Nation.
    This committee has documented time and again the countless 
instances where the Department of the Interior and its land 
managers have conducted themselves with little or no 
accountability to our Nation or to the communities they 
directly serve. We have seen the devastating impact that 
draconian Federal timber harvest restrictions have had upon 
rural communities. Massive numbers of employees, making good 
livings for healthy families, lost everything, including their 
homes, when companies were put out of business by uncaring 
bureaucrats.
    While the Federal Government's payments to offset those 
losses to these communities have kept schools open, we all know 
that these paltry measures are not enough. The real solution is 
to allow responsible forest management to proceed, so that we 
can put people back to work and focus on the business of 
restoring the health of our Nation's forests.
    In addition to the abominable treatment of our timber 
communities and the tragically poor schools, which results from 
Federal land that provides no taxes and termination of healthy 
harvesting and replanting, our government has failed to deal 
with the unprecedented and tragic humanitarian and national 
security crisis that occurs each day along our Northern and 
Southern borders.
    It is a fact that drug cartels and human traffickers have 
long used our unsecured borders to conduct their operations, 
and thousands of people have died as a result. Our unsecured 
borders also create a national security vulnerability that 
should not be tolerated. But because the Federal Government has 
chosen to favor environmental regulations over national 
security interests and human lives, this emergency continues.
    The flow of traffic across our unsecured borders has caused 
very real and very negative impacts upon our borderlands. Tons 
of litter, debris, and abandoned vehicles dot the landscape; 
and vulnerable habitats that Congress has sought to protect 
have been trampled and destroyed.
    Traffickers and drug lords could care less about bats, 
ocelots, or Sonoran pronghorn. Yet, land managers at the 
Department of the Interior have blocked Border Patrol from 
accessing these lands, so that they can secure our borders, 
enforce our laws, protect our lands, and save human lives, as 
well as our precious species.
    To be fair, it does appear that Interior is finally 
beginning to recognize that a secure border benefits all 
Federal interests, and documents received by this committee 
indicate that there has been an increased dialogue between 
Interior and Homeland Security. However, the Department of the 
Interior has taken too long to provide border access through 
our border agents, and the integrity of our lands and national 
security are jeopardized.
    For example, on April 11, the Department of the Interior 
and Homeland Security finally announced that three rights-of-
way permits had been issued, so that DHS could improve 
communications equipment in the Cabeza Prieta National Wildlife 
Refuge. This area has long been a dangerous dead zone for our 
Border Patrol agents, and this technology, which covers less 
than 100 square feet at each of three locations, will finally 
give agents the ability to call for backup and assistance in 
unsafe situations.
    The fact that Interior and DHS worked together seems like a 
great success, until you look at the history of this project 
and realize that the finding of ``No Significant Impact'' dates 
back to 2013. And this project has been on the books at 
Interior since, at least, 2011.
    That's right, Interior's inability to work expeditiously 
with DHS for 5 years on this critical security project, that, 
again, impacts less than 300 square feet of Federal property, 
unnecessarily put the lives of our border agents in jeopardy 
for at least 5 years. If our Department of the Interior defines 
this as success, it explains why so few endangered species have 
been rescued.
    I thank our witnesses for being here, and I am hopeful that 
they can bring some much-needed perspective to inform this 
committee.
    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    Today we will have the opportunity to hear testimony from witnesses 
that must live with the consequences of Federal land management every 
day of their lives.
    While there certainly are benefits to living near responsibly 
managed Federal lands--easy access to recreation, economic boosts from 
tourism, and the opportunity to work the land to provide for a family--
there also are drawbacks that in recent years have increasingly 
threatened the very existence of our rural communities, our farming, 
ranching, and timber families, and the security of our Nation.
    This committee has documented time and again countless instances 
where the Department of the Interior and its land managers have 
conducted themselves with little or no accountability to our Nation, or 
to the communities they directly serve.
    We have seen the devastating impact that draconian Federal timber 
harvest restrictions have had upon rural communities--massive numbers 
of employees making good livings for healthy families lost everything, 
including their homes, when companies were put out of business by 
uncaring bureaucrats.
    While the Federal Government's payments to offset losses to these 
communities have kept schools open, we all know that these paltry 
measures are not enough. The real solution is to allow responsible 
forest management to proceed, so that we can put people back to work 
and focus on the business of restoring the health of our Nation's 
forests.
    In addition to the abominable treatment of our timber communities, 
and the tragically poor schools resulting from Federal land providing 
no taxes and termination of healthy harvesting and replanting, our 
government has failed to deal with the unprecedented and tragic 
humanitarian and national security crisis that occurs each day along 
our Northern and Southern borders.
    It is a fact that drug cartels and human traffickers have long used 
our unsecured borders to conduct their operations--and thousands of 
people have died as a result. Our unsecured borders also create a 
national security vulnerability that should not be tolerated. But 
because the Federal Government has chosen to favor environmental 
regulations over national security interests and human lives, this 
emergency continues.
    The flow of traffic across our unsecured borders has caused very 
real and very negative impacts upon our borderlands--TONS of litter, 
debris and abandoned vehicles dot the landscape and vulnerable habitats 
that Congress has sought to protect have been trampled and destroyed. 
Traffickers and drug lords could care less about bats, ocelots, or 
Sonoran pronghorn. And yet, land managers at the Department of the 
Interior have blocked Border Patrol from accessing these lands, so that 
they can secure our borders, enforce our laws, protect our lands, save 
human lives, AND our precious species.
    To be fair, it does appear that Interior is finally beginning to 
recognize that a secure border benefits all Federal interests, and 
documents received by this committee indicate that there has been an 
increased dialogue between Interior and Homeland Security. However, the 
Department of the Interior has taken too long to provide border access 
to our border agents and the integrity of our lands and national 
security are jeopardized.
    For example, on April 11, the Department of the Interior and 
Homeland Security finally announced that three rights-of-way permits 
had been issued so that DHS could improve communications equipment in 
the Cabeza Prieta National Wildlife Refuge. This area has long been a 
dangerous dead zone for our Border Patrol agents, and this technology--
that covers less than 100 square feet at each of three locations--will 
finally give agents the ability to call for backup and assistance in 
unsafe situations.
    The fact that Interior and DHS worked together seems like a great 
success--until you look at the history of this project and realize that 
the Finding of No Significant Impact dates to 2013, and that this 
project has been on the books at Interior since at least 2011.
    That's right--Interior's inability to work expeditiously with DHS 
for 5 years on this critical security project that, again, impacts less 
than 300 square feet of Federal property--unnecessarily put the lives 
of our border agents in jeopardy for at least 5 years. If our 
Department of the Interior defines this as success, it explains why so 
few Endangered Species have been rescued.
    I thank our witnesses for being here and I'm hopeful that they can 
bring some much needed perspective to inform this committee.

                                 ______
                                 

    Mr. Gohmert. At this time the Chair now recognizes Mrs. 
Dingell for 5 minutes.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Mr. Chairman. I would like to 
start by welcoming the Ranking Member of our Full Committee, 
Mr. Grijalva, and thank him for taking time to add his 
considerable expertise to these proceedings. He knows Arizona 
well.
    I want to extend my appreciation to all of the witnesses 
who took the time and effort to be here with us today. I am 
especially grateful to the Department of the Interior, who has 
testified about this same issue multiple times in this 
committee.
    Securing the lands along our border is a serious 
responsibility, both at the Southern and Northern borders. I 
use this to remind everybody we have a Northern border, too, 
which we don't talk about as much. And I know it is one that 
neither the U.S. Border Patrol nor the Department of the 
Interior takes lightly.
    I also know that both agencies understand the importance 
and value of our Federal lands along the border, not only to 
our Nation as a whole, but to local communities whose economy 
depends on them. As we have heard before, both agencies are 
committed to working together to ensure that both national 
security and Federal land management go hand in hand.
    But some would have you believe that the only way to 
achieve border security is to throw our environmental 
protections out the window. They will have you believe that the 
only safe option is to militarize the borders with barriers and 
guns. There is one person, in particular, who will have you 
believe that the only way to ensure our safety is to build a 
concrete wall across the entirety of the U.S.-Mexico border, 
including our Federal lands, and that that wall should be paid 
for by Mexico, all $25-billion-plus.
    But what they may fail to mention, is that Congress has 
already required Customs and Border Protection to build nearly 
700 miles of fencing across the border, much of which was built 
across Federal lands. As a result, a large portion of fence was 
built without consultation from the public, private landowners, 
or Federal land management agencies. An alarming 37 laws were 
laid down, including fundamental environmental protections like 
the Endangered Species Act and the Clean Water Act. The fence 
has since caused major damage to American communities, local 
and regional economies, and has further threatened endangered 
species.
    The migratory and breeding patterns of diverse animal 
species, like the wild jaguar, have been disrupted. The normal 
drainage of rainwater has been re-routed, causing flooding like 
that which caused the collapse of a 40-foot section of the 
fence in the Organ Pipe Cactus National Monument.
    In communities along the border, the economic damage of the 
fence has also been substantial. In these communities, frequent 
crossing of the border is a way of life. Residents may live on 
one side of the border, while working, shopping, or eating on 
the other. The fence literally splits these residents' lives in 
two, and disconnects them from family and friends. Business 
owners have also suffered, as long wait times at designated 
ports of entry deter visitors. Private landowners have been 
forced to allow the fence to be built on their property with 
little compensation, drastically reducing their property's 
value and appeal.
    Fences and walls are a harmful, knee-jerk reaction to a 
complex issue. As Pope Francis said, ``We need to be focused on 
building bridges, not walls.'' Both Customs and Border 
Protection and the Department of the Interior understand that 
protecting the border, our wildlife, and our communities can be 
done in unison; but they must be done thoughtfully. Bypassing 
important laws and protections is both unnecessary and 
unhelpful.
    I encourage the committee to work with these agencies to 
try to reach a meaningful, long-term solution.
    I yield back my 32 seconds.
    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman. I'd like to start by welcoming the Ranking 
Member of the Full Committee, Mr. Grijalva, for taking the time to add 
his considerable expertise to these proceedings. I want to extend my 
appreciation to all of the witnesses who took the time and effort to be 
here with us today. I am especially grateful to the Department of the 
Interior who has testified about this same issue multiple times in our 
committee.
    Securing the lands along our border is a serious responsibility--
both our Northern and Southern borders. And I know it is one that 
neither the U.S. Border Patrol nor the Department of the Interior takes 
lightly. I also know that both agencies understand the importance and 
value of our Federal lands along our border--not only to our Nation as 
a whole, but to the local communities whose economy depends on them. As 
we have heard here before, both agencies are committed to working 
together to ensure that both national security and Federal land 
management go hand in hand.
    But some would have you believe that the only way to achieve border 
security is to throw our environmental protections out the window. They 
will have you believe that the only safe option is to militarize the 
border with barriers and guns. Some members of the other side of the 
aisle will even have you believe that the only way to ensure our safety 
is to build a concrete wall across the entirety of the U.S.-Mexico 
border, including our Federal lands. And that the wall should be paid 
for by Mexico--all $25 billion plus.
    What they may fail to mention, however, is that Congress has 
already required Customs and Border Protection to build nearly 700 
miles of fencing across the border, much of which was built across 
Federal lands. As a result, a large portion of fence was built without 
consultation from the public, private landowners, or Federal land 
management agencies. An alarming 37 laws were laid down, including 
fundamental environmental protections like the Endangered Species Act 
and the Clean Water Act. The fence has since caused major damage to 
American communities, local and regional economies, and has further 
threatened endangered species.
    The migratory and breeding patterns of diverse animal species, like 
the wild jaguar, have been disrupted. The normal drainage of rainwater 
has been re-routed, causing flooding like that which caused the 
collapse of a 40-foot section of the fence in Organ Pipe Cactus 
National Monument.
    In communities along the border, the economic damage of the fence 
has also been substantial. In these communities, frequent crossing of 
the border is a way of life; residents may live on one side of the 
border, while working, shopping, or eating out on the other. The fence 
literally splits these residents' lives in two and disconnects them 
from family and friends. Business owners have also suffered as long 
wait times at designated ports of entry deter visitors. Private 
landowners have been forced to allow the fence to be built on their 
property with little compensation, drastically reducing their 
property's value and appeal.
    Fences and walls are a harmful, knee-jerk reaction to a complex 
issue. As Pope Francis said, we need to be focused on building bridges, 
not walls. Both Customs and Border Protection and the Department of the 
Interior understand that protecting the border, our wildlife, and our 
communities can be done in unison, but they must be done thoughtfully. 
Bypassing important laws and protections is both unnecessary and 
unhelpful. I encourage the committee to work with these agencies to try 
to reach a more meaningful, long-term solution.

                                 ______
                                 

    Mr. Gohmert. I thank the Ranking Member. At this time the 
Chair recognizes the Ranking Member of the Full Committee, Mr. 
Grijalva, for 5 minutes.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you for your courtesy, Mr. Chairman, 
and thank you, Ranking Member.
    Some of my colleagues, and certainly the presumptive 
Republican nominee for President, seem to envision a border 
region populated entirely by murderers, drug traffickers, and 
criminals, in general, who must be kept out of the country at 
all costs; but that is not the real world.
    As measured by the Federal Bureau of Investigation crime 
statistics, U.S. border cities rank among the safest in the 
United States, and stand in stark contrast to the fragile, 
though improving, security situation in major Mexican border 
cities like Ciudad Juarez.
    Fear-mongering, rhetoric, and political posturing only 
serve to sow fear and division. They further the 
marginalization, exploitation, and vilification of the U.S.-
Mexican border region, as well as the people who live and work 
there. A great, great wall on our Southern border may grab 
headlines, but this simplistic and knee-jerk proposal 
represents only the latest in a series of reckless, legally 
dubious, and economically unsound--not to mention just plain 
dumb--campaigns carried out in the name of border security.
    History shows border walls, no matter how great, do not 
work. The Great Wall of China and the wall in Berlin are a 
couple of examples that come to mind. In reality, many parts of 
the Southern border, as was mentioned by the Ranking Member, 
are already covered in fences and barriers--700 miles worth. 
The economic, environmental, political, and social impacts of 
the border wall fall short from the gorgeous and beautiful, as 
been described. The damage, however, is pretty great.
    The border wall has had high human cost and increasingly 
negative impacts on species and ecosystems, which know no 
borders. In 2006, the Federal Government Accountability Office 
found that border crossing deaths doubled after the United 
States ramped up border security in the mid-1990s, even though 
there did not appear to be a corresponding uptick in 
undocumented migration during that time.
    In the past 17 years, more than 6,500 people have died 
trying to migrate through the U.S. Southern border. Despite its 
popularized image as a lifeless, inhospitable region, the 
Southern border is an area rich in diversity of species, 
ecosystems, people, and culture. The fragmentation and 
destruction of the physical environment caused by the border 
wall threaten our cherished wildlife and environment.
    As was mentioned by the Ranking Member, several species of 
wildlife have been observed and photographed stranded by the 
border wall, from pygmy owls, to desert bighorn, to jaguar. 
Studies have indicated that the border wall is a significant 
impediment to a variety of wildlife, including many imperiled 
species.
    We must protect our borders. But a great, great wall across 
the entire Southwest border is not the answer. Our shared goals 
of protecting endangered species, building a resilient border 
economy, and securing the border are not mutually exclusive. In 
fact, border security is at its best when it is built on a 
healthy economy and a healthy environment. The realities of 
border residents demand us to be creative and not simplistic. 
We must devise thoughtful solutions that measure up to the real 
stature of the problem. Simple minded and unilateral actions, 
such as construction of a wall, are not real solutions.
    Earlier this year, I introduced a bill, the ``Border 
Security and Accountability Act of 2015.'' Among other 
measures, my legislation secures our Nation, prevents real 
criminal activity, upholds our basic values, and respects 
individual liberties at the same time. At the very heart of my 
legislation is a humane, accountable, and more effective border 
security strategy that understands the local and regional 
impacts of border security infrastructure. It respects civil 
and human rights; promotes commerce and trade, which is vital 
to the region; protects the environment; and supports the 
people that call the border region their home.
    This is an approach we need. It is pro-family, pro-
environment, pro-business, and, indeed, pro-security, without 
sacrificing one priority for another.
    Again, Mr. Chairman, thank you for your courtesy, and I 
yield back.
    Mr. Gohmert. I thank the gentleman. At this time we will 
now introduce our witnesses.
    To my left is Ms. Sue Chilton from the Chilton Ranch and 
Cattle Company in Arivaca, Arizona. Then we have Ms. Tricia 
Elbrock from Animas, New Mexico. And then Mr. Jon Andrew, the 
Interagency Borderlands Coordinator for the U.S. Department of 
the Interior. Then, skipping down to the end, we have Ms. Nan 
Walden, the Vice President and Counsel for the Farmers 
Investment Company and Green Valley Pecan Company, located in 
Sahuarita, Arizona.
    Now I would like to invite the gentleman from Idaho, Mr. 
Labrador, to introduce our other witness.
    Mr. Labrador. Thank you, Mr. Chairman.
    I am pleased to introduce Commissioner Pinkerton today. Lee 
is currently serving his second term as a Boundary County 
Commissioner in my district. As the name tells you, Boundary 
County is at the boundary of the state, which is the boundary 
with Canada.
    Prior to serving as County Commissioner, he served over 23 
years with the U.S. Border Patrol. He served the final 8 years 
of his career in Spokane in the Spokane sector, which includes 
north Idaho. He chose to live in Idaho after he retired, and we 
are very happy about that. It has been a wise decision for him, 
and obviously, it has been a wise decision for the county. He 
has been doing a great job in the county.
    Lee, we welcome you today, and we look forward to hearing 
your testimony.
    Mr. Gohmert. All right, thank you. I will remind the 
witnesses that your entire written statement is part of the 
record. But under the Committee Rules, oral statements are 
limited to 5 minutes. We have a timer there. When the yellow 
light comes on, you have 1 minute remaining; and when the red 
light comes on, you will need to conclude your comments 
immediately. And, as I said, we have the written statements and 
we are grateful for those submitted by the witnesses.
    We were notified we were going to have a vote about 2:50 
p.m. It got moved back earlier than we anticipated. So, why 
don't we go ahead and take one 5-minute statement, and then 
recess for the votes. I think there are two votes, is that 
correct?
    OK, so Ms. Chilton, if you would present your oral 
statement for us, we would appreciate it.

   STATEMENT OF SUE CHILTON, CHILTON RANCH, ARIVACA, ARIZONA

    Ms. Chilton. Mr. Chairman and members of the committee, 
thank you very much. I really appreciate the opportunity to be 
here. My name is Susan Chilton. Our family ranch is adjacent to 
the town of Arivaca, Arizona, about 55 miles southwest of 
Tucson. The southern edge of our ranch is the international 
boundary. There is no wall for 25 miles, only a 4-strand barbed 
wire fence, easily cut or crawled through in seconds. That same 
little wire fence is all that separates us and our neighbors 
from armed Sinaloa drug cartel operatives.
    Thanks to the failed Defense in Depth strategy of the 
Border Patrol, we live in a No Man's Land, essentially ceded to 
cartel control. Our town's main road is the de facto 
international boundary, even though it is actually 20 miles 
north of the boundary. Why can't the Border Patrol secure the 
border at the boundary?
    First, the Border Patrol has faced NEPA obstacles to 
upgrading the barely, barely passable ranch roads leading south 
from Arivaca to the actual boundary. Recent U.S. Fish and 
Wildlife declaration of critical habitat for the jaguar along 
this drug importation corridor has blocked essential road 
improvements. Critical habitat for the jaguar is, in our 
opinion, a transparent ruse. The few jaguars reported anywhere 
in Arizona since the 1940s have been lone males exiled from 
their northern-most outpost 150 miles south of the border, and 
thousands of miles from their core habitat. Not one female has 
been documented as present in more than 65 years--and the 
pictures you are seeing up there are drug packers and their 
environment right on our border.
    How does this critical habitat ruse for the jaguar affect 
border security? In December, we took Commander Beeson of the 
Tucson Sector Border Patrol to our boundary corrals in what the 
Border Patrol knows is an active entry zone. Then we drove over 
the ranch roads to our neighbor's border ranch. It is 5 air 
miles away, however, it took us 3 hours to get there with 
Commander Beeson. That is because the roads are barely 
passable, and there is no road paralleling the border.
    That means the Border Patrol cannot get to where it sees 
the activity. The wildlife that is actually benefiting from the 
jaguar habitat is located in Sinaloa, Mexico; and they are 
happy about that declaration, because that gives them a free 
drug import area.
    Border Patrol officers do not have reliable communications 
in many parts of this No Man's Land. They cannot call for 
assistance if they encounter armed drug patrols coming north, 
so they do not really want to be down there alone.
    In our No Man's Land, electronics and drone surveillance 
alone are totally inadequate, because, as the Border Patrol 
agent in charge of the Tucson Border Patrol Station told us 
right before he retired, ``Even when I can see what is 
happening, I can't get there.''
    Border Patrol has no forward operating bases in this cartel 
route, so the time delay for reporting to the actual border in 
this area is between 2 and 3 hours. We have taken two groups of 
high-ranking Border Patrol officials to the border, shown them 
our private land with water, good sites for portable 
facilities, corrals for their horse patrol, and offered them 
the use of this private land for $1 a year. My husband has 
offered to lend them the dollar if they can't afford it.
    What are some of the specific consequences of the failed 
strategy of Defense in Depth?
    One, residents like us are exposed to encounters with 
heavily armed drug packers. In addition to the two burglaries 
we have personally suffered, we have rancher friends who were 
held hostage, robbed, and forced to drive the invader to the 
border just last fall. Another neighbor's 15-year-old daughter 
was the target of a home-invading south-bounder group in March. 
Another neighbor gave up in the face of these constant 
incursions and sold out to the Fish and Wildlife Service. The 
current Defense in Depth strategy converted former historic 
ranches into taxpayer-financed enlargements of cartel-
controlled territory.
    Recreationists, hunters, campers, fishermen, and picnickers 
are encountering signs put up in those areas that they may 
encounter illegal traffic, smuggling, and armed persons. Many 
would-be worker entrants suffer rape, mutilation, abandonment, 
or murder at the hands of the cartel. Just a few months ago, 
one individual, reportedly with a drug packing group, was 
incinerated 9 miles north of the border and just west of our 
ranch. The official and highly----
    Mr. Gohmert. Ms. Chilton, we need to----
    Ms. Chilton [continuing]. Improbable story is that he was 
trying to charge his cell phone by throwing a wire over a high 
power line. If you believe that, we don't. It is only a matter 
of time until terrorists----
    Mr. Gohmert. Thank you, Ms. Chilton.
    Ms. Chilton [continuing]. Discover what the drug packers 
have discovered, and that is that this is an open entrance to 
the United States.
    Mr. Gohmert. Our time is restricted, as I said. You are a 
minute over, so we need to move on. We are going to be able to 
take at least a couple of more statements. Thank you, Ms. 
Chilton.
    [The prepared statement of Ms. Chilton follows:]
        Prepared Statement of Susan E. Chilton, Arivaca, Arizona
    My name is Susan Chilton. I am a retired Arizona Game and Fish 
Commissioner. I chaired the Commission from 2004-2005 and am currently 
chairing the state board that reviews applications for the 
Commissioner's position and sends finalists' names to the governor for 
appointment. I have been an educator for more than five decades and an 
active amateur student of Arizona wildlife, southern Arizona wildlife 
habitats, and range botany.
    My husband and I live near the historic borderland cattle ranching 
community of Arivaca, Arizona approximately 55 miles southwest of 
Tucson, Arizona. Our ranch is adjacent to the town of Arivaca and 
continues south to the international boundary with Mexico. Our fence at 
the southern edge of our family ranch is the international boundary. 
There is no wall, only a four-strand barbed wire fence--easily cut or 
crawled through in seconds. For a total of 25 miles east and west, that 
same little wire fence is all that separates us and our neighbors from 
armed Sinaloa drug cartel operatives who pass easily through that open 
door.
    We and our ranch neighbors live in a No Man's Land essentially 
ceded to cartel control. Our town's main road is the de facto 
international boundary even though it is about 20 miles north of the 
actual border. Why?
    The two Border Patrol stations responsible for different parts of 
our ranch are headquartered in Nogales and Tucson; the officers spend 
hours of their working day on Interstate 19 getting from their 
headquarters to the Border Patrol checkpoints, including the closest 
one on Arivaca Road about 20 miles northeast of our home. They spend 
some time driving east and west on Arivaca Road and a lot of time at 
the checkpoint. They are implementing the strategy known as Defense in 
Depth. That means that all of the hundreds of square miles of 
borderlands north of the unsecured international boundary between 
Nogales and Sasabe and south of Arivaca Road where we and our neighbors 
live are basically entrance routes controlled by Sinaloa Cartel-paid 
scouts.
    Cartel scouts are supplied with military-grade equipment and a 
salary. They move from one site to another according to cartel strategy 
using mountains on our ranch and on those of our neighbors. Border 
Patrol removes them at times--with difficulty--but the scouts or their 
replacements quickly return to a new mountain-top assignment. The 
scouts guide the movement of people and drugs right through this No 
Man's Land.
    Drug packing groups are directed across the unsecured boundary and 
along hundreds of trails through ranch pastures from Mexico north to 
GPS'd sites. At those ever-changing sites, the ``merchandise'' being 
imported to the lucrative American addiction market will be picked up 
by cartel-connected operatives from Tucson or Phoenix. The imported 
drugs will undersell competing drugs made or grown in the United States 
because raw material costs in Mexico for ingredients for meth or other 
illegal drugs and taxes, security, licensing, and accountancy and 
reporting costs for marijuana will cause the ``domestic product'' to be 
more expensive than the illegally imported version.
    After depositing their loads, the packers become ``south-bounders'' 
headed back to Mexico.
    Some of these south-bounders commit assaults, home invasions and 
burglaries to acquire items they can carry back. We have been 
burglarized twice with major losses of irreplaceable items.
Why is it difficult for the Border Patrol to actually be at the border 
        and close this well-known entry route?
    (1) Border Patrol has faced NEPA obstacles to upgrading the barely 
passable ranch roads leading south from Arivaca to the actual border. 
Recent declaration of critical habitat for the jaguar--a tropical cat--
along this drug importation corridor by the USFWS created further 
barriers to road improvement and to installation of other facilities 
needed by the Border Patrol.
    Critical habitat for the jaguar is, in our opinion, a transparent 
ruse: the very few wandering jaguars reported anywhere in Arizona since 
the 1940s have been lone males exiled from their northern-most outpost 
150 miles south of the border and thousands of miles from their core 
habitat. Not one female has been documented as present in 65 years.
    How does this critical habitat ruse affect border control? In 
December, we took Commander Beeson of the Tucson Sector Border Patrol 
to our border corrals in what the Border Patrol knows is an active 
entry zone and then drove over the ranch roads to our neighbor's border 
ranch just about 5 air miles west of us--another very active entry 
zone; it took 3 hours to get from our corrals to theirs following the 
only road because there is no road paralleling the border along this 
drug importation route. Meanwhile, approval for road improvements the 
Border Patrol deems essential, would certainly trigger lawsuits 
supposedly on behalf of wildlife like the jaguar. The ``wildlife'' that 
would actually be delighted by their efforts is a criminal outfit 
headquartered in Sinaloa, Mexico.
    (2) Border Patrol has no forward operating bases in this cartel 
route so the time delay for reporting to the actual border on our ranch 
or that of our neighbors from either Nogales or Tucson is between 2 and 
3 hours. We have taken numerous high ranking Border Patrol officers to 
our property at the border, shown them our private land with water, 
good sites for portable facilities and corrals for their horse patrol 
and offered them the use of this land for a one dollar ($1.00) lease 
per year so they can have a forward operating base at a known incursion 
point . . . my husband has offered to lend them the dollar if they 
can't afford it . . .. Years have passed and there is no action of 
which we are aware on this offer.
    (3) In addition to the mobility limits of the lack of functional 
roads, Border Patrol officers do not have reliable communications when 
in this No Man's Land so they cannot call for assistance when needed. 
Last week, after first taking two journalists to two lengthy unfenced 
rural sections of the boundary, we then took them to the west end of 
the wall in Nogales to see the difference. They needed to personally 
see where the city wall ends and where the unsecured 25 miles begins. 
An event occurred along the Nogales wall road right in front of us; we 
stopped our truck and watched as three Border Patrol vehicles, called 
in by the patrolling officer who spotted the suspicious incursion, came 
flying down the road in less than 5 minutes, stopped the vehicle and 
got the occupants out. That was possible because they have a wall in 
Nogales, excellent communications capability there, and full time 
patrolling along on the very functional road next to the wall . . . 
right up to the point where it abruptly ends and the little 25-mile 
four-strand wire fence begins.
    (4) Electronic devices and drone surveillance alone are totally 
inadequate because, as the just-retired Patrol Agent in Charge of the 
Tucson BP Station told us, ``Even when I can see what is happening, I 
can't get there.''
What are some specific consequences to us of the failure of Federal 
        agencies to prioritize and implement effective border control?
Human impacts
    (1) Residents who live and work in this No Man's Land are exposed 
to encounters with heavily armed, meth-intoxicated drug packers; in 
addition to the burglaries we have suffered, we have rancher friends 
who were held hostage and robbed and forced to drive the invader to the 
border just last year and neighbors whose 15-year old daughter was the 
target of home invading south-bounders in March of this year.
    Other neighbors, some of whose ranches had been in their family for 
more than a hundred years, gave up in the face of constant harassment 
by drug packing criminals and damage and thefts by south-bounders and 
sold out to the U.S. Fish and Wildlife Service's borderland refuge. The 
current failed ``Defense in Depth'' strategy--which essentially puts 
the Border Patrol 20 or more miles north of the boundary and the cartel 
at the line of scrimmage--effectively converted the formerly productive 
ranches into a taxpayer financed enlargement of the safe-passage zone 
for drugs.
    (2) Recreationists are confronted with road signs put up by the 
Forest Service warning them that they may encounter illegal activities 
and smuggling throughout the portions of this unsecured drug route 
within the Coronado National Forest; Arizona Game and Fish publishes 
explicit warnings alerting hunters of dangers they may encounter while 
hunting near the border; many people are reticent to hunt, fish, bird-
watch, or family camp on formerly popular Coronado National Forest 
sites in the open drug corridors.
    (3) Would-be workers from Mexico or other nations are forced to pay 
the cartel guides. Many of these poor people, especially women, suffer 
horrendous abuses, including deaths numbering over 2,000 bodies found 
in the Tucson Sector of the border since 1996, rape, murder, and 
mutilation. Additionally, some groups, after paying thousands of 
dollars to the cartel to be ``guided'' may be used as decoys to 
distract authorities and facilitate higher value drug packing.
    Just a few months ago, one individual--reportedly with a drug 
packing group--was incinerated 9 miles north of the border and just 
west of our ranch; the official--and highly improbable--story 
circulated about this death is that he was ``trying to charge his cell 
phone by throwing a wire over a high power line.'' This is another 
example of a known recent death directly connected to the failure to 
secure the border. The official story raises the question of whether it 
is also possibly an example of agency policy to attribute deaths to 
accident, suicide or the stupidity of the victim rather than to failure 
to secure the border.
    (4) Border Patrol officers working these areas face war-like risks. 
Rip crews setting out to hijack cartel contraband engage in fire fights 
with drug packers or Border Patrol agents pursuing them. One such 
situation to which the Border Patrol responded resulted in the murder 
of Officer Brian Terry. The canyon in which he was killed is a well-
known cartel route in this No Man's Land. It is just east of our 
pastures and on a neighboring ranch.
Environmental impacts
    (1) Wildfires--some growing to hundreds of millions of dollars in 
damage to homes, ranch lands and businesses in border communities--are 
deliberately ignited by drug packers if they are pursued by Border 
Patrol; fire personnel reporting to a near-by fire which had begun 
spreading onto our home pasture told us they ``couldn't stay there 
fighting the fire at night because the area was too dangerous.'' My 
husband kept fighting it . . . Hotshot firefighters on some borderland 
fires have armed guards as part of their contingent.
    (2) Trash--an appalling amount has been dropped on the Coronado 
National Forest, the Buenos Aires Refuge, the Pajarito Wilderness, 
State School Trust lands and private ranch lands all in this open 
corridor and all crossed by trails from Mexico used by the cartel 
groups. A conservative total of trash dumped on this drug route to the 
United States is estimated at 12,750 tons between l992 and 2015 using 
the Border Patrol's own figure of 8.5 pounds per entrant and 
multiplying only by the number of individuals reported as apprehended. 
This figure can easily be tripled since most experts and independent 
reports indicate that few south-bounders are apprehended and reliable 
figures are not available for the pre-2008 period when larger numbers 
of work-seekers used this route.
    (3) Cut water lines--we maintain many water lines and drinkers for 
both livestock and wildlife. These are essential since natural water is 
almost non-existent during the dry months of the year. We put escape 
ramps on the waters so wildlife does not drown and drinking fountains 
on many so people can drink--we don't want anyone to die of thirst 
here. However, drug packers often cut the water lines which results in 
the loss of thousands of gallons of water and the dry-up of drinkers 
essential to both wildlife and livestock. This is an on-going 
maintenance cost and the lack of water if a tank is emptied can be 
fatal for cattle, wildlife or people.
    (4) Cut fences mean cattle from Mexico can walk into the United 
States and ours can wind up in Mexico or wander into pastures that are 
not the ones scheduled for that rotation. The grazing rotation is 
carefully designed in collaboration with the Forest Service and based 
on university range research to ensure the best re-growth and 
production of forage, quality riparian conditions, and habitat for our 
wildlife. The drug packers cause much loss of time and labor getting 
cattle back into the proper pasture and repairing the cut fences; 
additionally and importantly, they undermine the scientific research 
and monitoring that informs our grazing management and that of our 
neighbor ranchers.
National impacts
    (1) Citizens across this Nation will continue to bear the 
increasing cost of cheap, wide-spread drug addiction resulting from the 
failure to control our borders, of drug-damaged babies born to meth-
using mothers and of the growing impact of heroin and other drugs on 
the health and well-being of our communities; the human and civic 
damage is every bit as terrible as a bombing attack--it's just not as 
explosive, concentrated and easily visually conveyed with photography.
    (2) National Security--it is only a matter of time until would-be 
terrorists realize what the cartel has already realized: this un-
walled, minimally patrolled section of the border is welcoming them.
    What do we know? We know the international boundary with Mexico is 
not secure and that drug packers are coming right through our property 
because we and others maintain hidden trail cameras that record 
reality; we--and the journalists to whom we show these photographic 
records of heavily laden drug packers and of south-bounders tossing 
incendiary devices to create a fiery barrier as they are pursued--
cannot be told that the ``border is secure'' nor can we feel safe when 
we or our loved ones are working in pastures near the border.

    What do we need? First, technology is NOT sufficient. We need:

  1.  A good wall with full-time patrolling to replace the current 
            open, unsecured 25-mile gap between Nogales and Sasabe;

  2.  Forward Operating Bases manned like fire stations 24/7;

  3.  Functional roads to the border and along the new wall--a wall is 
            of little use if the Border Patrol is no where around and 
            can't get to the incursion;

  4.  Prompt waiving or constructive dealing with issues of ``wildlife 
            connectivity and endangered species'' that are currently 
            abused to supersede national security

  5.  Better communications and quick response capability for the 
            Border Patrol;

  6.  A feasible worker permit program which adequately vets temporary 
            laborers and provides them with documents, appropriate 
            worker protections, the right to come and go, and a legal, 
            safe alternative to trying to get to a job by paying the 
            cartel and suffering horrible treatment at the hands of the 
            criminal operation.

    These six essential requirements, supplemented by technology, would 
close this 25-mile open door before more human tragedies and national 
security threats bring us to our senses. We thank you for understanding 
that the smokescreen of cost obscures the much greater cost of deciding 
NOT to secure the border.

                                 ______
                                 

   Questions Submitted for the Record to Ms. Sue Chilton, Co-Owner, 
                    Chilton Ranch, Arivaca, Arizona
             Questions Submitted by Representative Gohmert
    Question 1. Ms. Chilton, you state in your testimony that Border 
Patrol needs to operate closer to the border. What is preventing that 
from occurring?

    Answer. Mr. Chairman, many issues currently can be cited as reasons 
why the Border Patrol is not at the boundary in our area.
    First, executive policy at the top levels supports a ``Defense in 
Depth'' strategy that allocates agents to urban center headquarters and 
assigns them daily to positions in the Station that are often very 
distant from the actual boundary. Actually getting to the border in the 
rural areas can take 3 hours from, for example, the Tucson Station. The 
agents primarily patrol paved roads 10, 20, 30 or even 50 and 100 miles 
from the boundary. The stated objective is to catch undocumented 
entrants and drug packers at ``choke points'' well north of the border.
    In our area, this strategy allows cartel operatives to select among 
hundreds of potential trails through hundreds of square miles of rural 
territory with the guidance and real-time assistance of cartel-paid 
scouts who move among the many high-point look-out sites they can 
occupy in the little-patrolled square miles between the boundary and 
the ``patrol roads.''
    This strategy also consigns rural residents to a No Man's Land with 
drug packing groups marching right through private property and 
dropping their loads at GPS'd sites for pickup by U.S.-based drug 
purveyor colleagues. We personally know two families--friends and 
neighbors--who were the victims of home invasions by south-bounders in 
the 6 months before my April 28 testimony. In one of those cases the 
young teenage daughter grabbed a gun and defended the home until her 
parents could get back; in the other, the elderly rancher and his wife 
were robbed and kidnapped by the invader who forced them to drive him 
and his loot to the border in Nogales. These are not immigrants seeking 
work; they have work facilitated by the current border strategy.
    The ``Defense in Depth'' strategy is the first impediment that 
needs to be changed.
    Second, if the strategy were changed tomorrow, other major 
impediments would need to be addressed: the first of these is the 
challenge of getting essential road improvements or road extensions so 
equipment, supplies for forward operating bases, technological aids and 
agents can move to or along the border. NEPA and other environmental 
laws are a major barrier to progress toward securing the border. Even 
if the NEPA process is scrupulously followed (years of work and delay 
during which the current open drug route stays wide open), legal 
challenges by open border advocates would follow on behalf of 
``wildlife connectivity with Mexico.''
    Third, Border Patrol contract/union arrangements need to be 
reformulated to facilitate effective staffing of forward operating 
bases. Agents need to be at the international boundary, not hours away. 
Horse patrol and any other necessary transportation-and-maneuvering 
means need to be enabled and funded. Station Chiefs need not to be 
bound by rules that limit his/her ability to staff these forward 
operating bases with the individuals deemed most competent and willing 
to negotiate boundary terrain and capable of using effective means to 
apprehend crossers.
    We understand that the present inability to offer overtime pay and 
current per diem limits to assignments greater than 50 miles from an 
agent's reporting station are issues that need to be resolved. Agents 
who demonstrate ability and willingness to put in the extra physical 
labor that goes with patrolling in a more rugged environment need to be 
motivated to seek those assignments.

    Question 2. In terms of border security, what impacts can we expect 
to see from the jaguar critical habitat?

    Answer. Mr. Chairman, we already see impacts from jaguar critical 
habitat declaration. This declaration can be used as a ``backstop'' 
that has the effect of supporting the probability that cartel-favored 
rural segments of the boundary remain unimpeded by an effective wall 
and unpatrolled and inaccessible in terms of timely response. This 
``backstop'' is, either intentionally or unintentionally, quite 
convenient for the cartel's operations in the event that public 
pressure for a wall, forward operating bases, and roads to stop the 
flood of drugs from Mexico were to become stronger. The critical 
habitat declaration insures a basis for years of legal appeals against 
any action that could be asserted to have restricted ``wildlife 
connectivity'' with Mexico.
    Clearly, cartel operatives are not taking pains to avoid affecting 
or intimidating wildlife; they are merely tromping through specially-
designated areas (wildlife refuges, national conservation areas, 
national forests, wilderness or wilderness study areas, parks, etc.) 
with greater freedom from pursuit due to the restraints faced by 
Federal authorities. Agency officials will say otherwise, (``We have an 
MOU'') but individual agents know they must follow special rules when 
operating in any of the nationally established preserves. Border Patrol 
agents face restrictions and prohibitions on vehicular access in 
wilderness areas and, in other federally managed border areas, are 
hampered by off-road pursuit limits, lengthy delays of multiple years 
to obtain permission to improve or construct roads, lack of reliable 
communication capability, and the difficulty of getting back-up 
assistance. All of these and endangered species regulations impede 
effective apprehension of entrants, especially cartel-guided drug 
packers who are often led by heavily armed individuals. These special 
Federal ``wildlife connectivity'' areas go right to the border and 
become preferred drug highways. A map of Arizona reveals that very 
little of the boundary area is private property; the vast majority is 
under one Federal designation or another.
    The total absence of verified female jaguars for more than half a 
century and the failure of the Fish and Wildlife Service to follow its 
own rules regarding the definition of ``occupied habitat'' (they 
ignored the biological requirement that you can't preserve a species 
without females) are evidence that the habitat overlay is neither 
critical nor essential for the survival of the jaguar species; it is a 
barrier to securing the border and another layer of protection for 
cartel operations, whether so intended or not.

    Question 3. Obviously, wildfires have a devastating impact and can 
be especially damaging to cattle ranches. Wildfires can start from a 
number of sources, why do you believe some of them were caused by 
illegal border crossers?

    Answer. Why do we believe the costly border area wildfires are 
caused by persons entering southern Arizona illegally through rural 
sections of the boundary with Mexico?
    Yes, those ``human caused fires'' near the border are probably 100 
percent caused by undocumented crossers--mostly drug packers. Some are 
``come rescue me'' fires while others are ``decoy fires'' set to draw 
response away from cartel actions or ``fire barriers'' intentionally 
set to hamper pursuit.
    We were told that the Forest Service actually apprehended some 
crossers who admitted starting a major fire (the Murphy Complex Fire), 
promptly turned them over to responsible authorities who . . . 
proceeded to return them to Mexico. They were not fined, charged, or 
jailed to our knowledge. If an American citizen were to be caught 
setting a similar fire, the legal consequences would be severe.
    This spring so far, one 4,000-acre border fire on our pasture 
southwest of the house was fought (at taxpayer expense in personnel and 
equipment) about a month ago; another is burning at this moment in a 
border pasture southeast of our house. Forest Service personnel, 
including our Coronado National Forest Range Conservationist, were at 
our home this morning (6-2-16) going over the maps of the area and 
discussing with my husband where best to set backfires and to create 
defensive lines for the current ``human-caused'' fire. Both of these 
fires began very near the border in the major crossing canyons used by 
the cartel. There has been no lightning--the sky is cloudless, it is 
not hunting season and no one (in his right mind and legally here) is 
camping in these areas which feature large road signs warning 
recreationists that ``Illegal activities and smuggling may be 
encountered in this area.''
    The cost of NOT securing the border is never weighed against the 
much-decried cost of effective action to stop illegal entry. We could 
probably build a lot of the international boundary fencing and do 
necessary road work with the same amount of funds allocated in the last 
few years to fighting the major undocumented entrant-caused Arizona 
border fires (the Horseshoe, the Monument, the Murphy Complex--this one 
came right up to our ranch eastern boundary fence). More fires in the 
last several years plus those of this spring continue to ring up ever 
more taxpayer cost to say nothing of placing firefighters, area 
residents and property at risk. The cost of pursuing, incarcerating and 
prosecuting cross-border drug packers, the social and economic cost of 
dealing with drug addiction and the flood of meth, heroin, cocaine, and 
marijuana entering the Nation, the cost of finding homes for children 
born addicted to drugs and needing special care, the cost of educating 
a growing number of children who have access to cheap drugs and whose 
ability to plan for the future has been negatively affected by early 
teen drug use--all of these social costs are causing monumental damage 
to the social fabric of the nation. ``No problem,'' say some, ``let's 
prioritize wildlife connectivity with Mexico.''
    We suggest that Congress request a GAO study to account for all of 
the aforementioned costs of NOT securing the international border at 
the boundary.
    Such a study would provide a much-needed counter-balance to the 
cries that it is ``too expensive'' to secure the rural segments of the 
boundary with Mexico.
    Mr. Chairman, we know you, and some of your fine colleagues, 
understand the real problem of the current national policy of leaving 
open doors for Cartel ``bi-national enterprises;'' we only wish your 
recognition of this enormous issue were shared by all of your 
colleagues and by the current Administration.

             Questions Submitted by Representative Grijalva
    Question 1. Has the Border Patrol ever indicated to you why they 
have not taken you and your husband up on the offer of the use of your 
land to construct a forward operating base?

    Answer. We thank you for asking your very relevant question 
regarding the Border Patrol's response to our offer of 10 acres of 
private land about 200 yards from the international boundary. The site 
has corrals, water and an area for modular units to establish a forward 
operating base at the south end of California Gulch at a lease rate of 
$1.00 per year.
    We are aware that the Tucson Station and Tucson Sector of the 
Border Patrol have been in the process of trying to obtain permission 
from the Forest Service to improve the roads leading from Arivaca to 
the border. We were told by the just-retired Patrol Agent in Charge of 
the Tucson Station that the NEPA process had been underway for nearly 6 
years. The need has been critical for that entire period and the result 
of this ``process'' is that some high priority approvals are still 
``pending.''
    In order to begin establishing a forward operating base on the 
property we own at the boundary, the Border Patrol would need to be 
able to get facilities, supplies and personnel to the site--this would 
require improvement of Forest Road 217 and the spur connecting it to 
the border site. If you have been down these roads, you already know 
that even 5 to 10 miles an hour is a bone-jarring experience. Equipment 
and modular housing would not do well in transport without appropriate 
road improvement. You are no doubt also aware that cell phone service 
is spotty and unreliable in border canyons and would require placement 
of equipment to ensure communication ability for the agents down 
California Gulch.
    Effective operation at a forward operating base would also require 
a functional road along the border east and west of the site, 
especially connecting (toward the west) to Tres Bellotas Road and on to 
Sasabe and then east (from the site we own) to connect with the road 
along the border in Nogales. Timely response to detected entry efforts 
without road improvement is exceedingly difficult. In spite of the lack 
of border roads at the present, a forward operating base would still 
improve response time if horse patrols and all-terrain vehicles could 
at least maintain some control until roads paralleling the border could 
be completed. We have been told by various higher level Tucson Border 
Patrol personnel that they are looking into the forward operating base 
offer. There are no doubt other sites in the vicinity that they may be 
considering near the international boundary perhaps on Forest Service 
land. We have no knowledge of what other options for a forward 
operating base in the area they may be evaluating.
    We are also aware that staffing and salary issues need to be dealt 
with so that agents who are stationed at forward operating bases are 
properly compensated for extended work periods (perhaps 3 consecutive 
days of 12-hour shifts with 12 hours off at the base, but they would 
not be wasting as much as 6 paid hours daily--that's how much time they 
would use up of their shift if they drove in each day from Tucson). 
Additionally, Station chiefs would need the flexibility to staff the 
site on the basis of their judgment as to which agents are best suited 
for the assignment.
    If the Border Patrol were able to operate at the international 
boundary from this forward operating base location, it would greatly 
lessen three major existing problems:

    First, these routes between Nogales and Sasabe would become less 
favorable for cartel operations. Those operations result in terrible 
mistreatment of would-be workers who are sometimes robbed, raped and 
used as decoys for the more lucrative drug loads. The current strategy 
results in a flood of drugs entering through this area. Additionally, 
if drug packing groups can be stopped from passage through this very 
active sector, the number of ``rip crew'' operations coming out of 
Tucson and other cities to attempt to hijack the high value loads would 
likely be reduced.

    Second, we would have far fewer border fires--one 4,000-acre fire 
was set southwest of our home last month and put out at significant 
taxpayer expense--and one is ongoing southeast of our house at this 
very moment. My husband is there right now (6-2-16) to see where it is 
going and what action needs to be taken by the ranch to ensure the 
safety of the cattle and determine damage to essential waterlines and 
other infrastructure. The cost of personnel and equipment to fight 
these border fires would be saved if effective enforcement of the 
boundary were prioritized. These costs are, I believe, considered 
Forest Service costs when they are actually costs of the current Border 
Patrol strategy.

    Third, the enormous quantities of trash being left on the Coronado 
National Forest and private and State Trust lands near the border would 
be greatly reduced. The trash is mostly plastic and cans, none of which 
is biodegradable for decades so it just piles up and the problem grows 
each year.
    In the event one needs more reasons to secure the border and 
establish forward operating bases to accomplish that goal, we just 
today heard again a report of an Afghan entrant apprehended at the end 
of 2015 ``crossing under a small fence'' (like the 4-strand wire fence 
on the 25 miles of open boundary 5 miles of which is between our 
southern pasture and Mexico) along with a group of Pakistanis. The 
Afghani's name was located in a terrorist database.
    Additionally we very recently heard from high level Border Patrol 
officials that Mexican fields formerly dedicated to raising marijuana 
are now being converted to opium poppies.
    We sincerely hope that you will try to determine what can be done 
to address the open border situation that so heavily impacts your 
congressional district.

                                 ______
                                 

    Mr. Gohmert. Ms. Elbrock, you are recognized for 5 minutes.

        STATEMENT OF TRICIA ELBROCK, ANIMAS, NEW MEXICO

    Ms. Elbrock. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to speak to you today. My name 
is Tricia Elbrock, and I am here on behalf of my family, my 
neighbors, members of the New Mexico Cattle Growers' 
Association, and every American that is threatened by the lack 
of security along our international border with Mexico.
    My husband, Edward; my son, William Swift; and I own and 
operate Elbrock Water Service, Elbrock Drilling, and Elbrock 
Ranch, where we raise Beefmaster cattle and show lambs for 
youngsters in our region.
    Like most all ranches in southern New Mexico, our ranch 
contains Federal land. In our case, it is Bureau of Land 
Management. In 1978, we started our water and drilling 
companies based in Animas, New Mexico, which serves all 
southeast Arizona and southern New Mexico, from Tucson to El 
Paso. Animas is nestled in what is called the Bootheel because 
of the way the area fits into New Mexico.
    You may have heard recently about the kidnapping of one of 
our employees in December 2015 and, yes, this was a kidnapping, 
regardless of rumors to the contrary. Our man was working on 
one of the ranches we service that runs along the Mexican 
border. The event occurred over 2 days and involved an all-out 
man hunt before he was freed. The story sounds simple enough 
with an apparent happy ending, but it is not so. Our man is 
emotionally and mentally fragile.
    Clearly, the border is not secure. Our families and 
employees are at risk all day, every day. There is a huge 
emotional toll on everyone because we live in constant fear of 
our lives, our employees, our communities, and our livestock. 
The flow of illegal drugs and those running them is endless. 
U.S. Border Patrol statistics say the traffic across the border 
is down. That simply is not the case. What we are seeing are 
drug runners and illegals from all over the world coming in 
droves across a border that has no deterrent at all. There are 
thousands of backpacks and boxes coming across daily. The 
assumption is that they are filled with drugs. The reality is 
that they could be carrying anything from explosives to nuclear 
weapons.
    It is more costly to do any kind of business in our region. 
Our insurance was up for renewal in March. We could not find 
any other company that would even provide us a quote. Living 
and working near the border, we are labeled high risk. Nearly 
all of us in this area suffer break-ins almost routinely, with 
vehicles stolen many times. Many in our area have stopped 
reporting break-ins and theft to their insurance for fear of 
not being able to buy insurance at all. If we cannot buy 
insurance, we will probably have to go out of business. Without 
insurance, there will be no ranches and businesses to support 
our towns.
    This brings us to an entirely different subject, the 
inability of our government to protect us brings down the value 
of our land. If we were to be forced out, we would have to take 
pennies on the dollar of what our lands are really worth.
    Our lands, private, Federal, and state are strewn with 
litter, trash, human waste, and perhaps even drug drops that 
were not picked up. One neighbor had 20 head of cattle die last 
year from reasons that still have not been determined. They 
were not shot, they were not attacked by predators. There were 
no unusual plants that could have killed that many in one spot. 
They seemed to have just fallen over dead. The prime theory is 
that they ingested illegal drugs.
    Our region, from Arizona to Texas, has a wide variety of 
federally owned lands, ranging from BLM and Forest Service to 
wildlife refuges and monuments. Many of these Federal 
designations do not allow for appropriate surveillance. 
Mountains near us have been burned to the ground due to fires 
started by illegals. Federal land use regulations need an 
overhaul to address the specific and special needs of the 
borderlands. Law enforcement agencies and the Border Patrol 
need access to every inch of Federal lands to be able to 
protect our families and communities.
    The agents are operating with at least one hand tied behind 
their backs. Instead of securing the border at the border, they 
are directed to patrol from 20 to 60 miles north of there. 
Those of us south of that arbitrary line are literally left in 
No Man's Land. The Border Patrol needs access to the border, 
which is often denied on borderlands.
    We saw a 26 percent increase in our Federal land grazing 
fees this year and last. Our state land grazing fees went up by 
21 percent last year and 25 percent this year. These formula-
driven fees do not take into account the additional cost of 
doing business in our area.
    In March, more than 600 people gathered in my small town of 
Animas, New Mexico, to plead to elected officials from Congress 
all the way down to county commissions and sheriffs to spend--I 
invited them, and I invite all of you--a few days with us to 
see firsthand what we deal with every day, from murder, to 
kidnapping, and property destruction. Come see what we put up 
with in our backyards. Would you all like that activity in your 
backyard? What other area of our Nation is sacrificed in this 
way?
    We are in a war with drug lords and an invasion from 
countries from around the world, friend and foe. It is time to 
address this war and invasion with our troops. This is the 
United States of America. We are American citizens. We should 
not be forced to live this way. The Bootheel is no less 
America, and the people are no less American, than anywhere 
else. Is it fair for our community to be providing food for the 
Nation while being left to fend for ourselves from smugglers 
and invaders?
    I thank you for this time and attention, and I will stand 
for questions.
    [The prepared statement of Ms. Elbrock follows:]
 Prepared Statement of Tricia Elbrock, Animas, New Mexico on behalf of 
               the New Mexico Cattle Growers' Association
    Thank you Mr. Chairman and members of the committee, for the 
opportunity to speak to you today. My name is Tricia Elbrock and I am 
here on behalf of my family, my neighbors, members of the New Mexico 
Cattle Growers' Association (NMCGA) and every American that is 
threatened by the lack of security along our international border with 
Mexico.
    My husband Edward, my son William (Bunch) Swift, and I own and 
operate Elbrock Water Service, Elbrock Drilling which includes a 
hardware store and Elbrock Ranch where we raise Beefmaster cattle and 
show lambs for youngsters in our region. Like most all ranches in 
southern New Mexico, our ranch contains Federal land. In our case it is 
Bureau of Land Management (BLM) lands.
    Our water and drilling companies based in Animas, New Mexico, 
serves southeast Arizona and southern New Mexico from Tucson to El 
Paso. The business was started in 1978 and we presently employee 20 
individuals. Animas is nestled in what is called the Bootheel because 
of the way the area fits into New Mexico.
    You may have heard recently about the kidnapping of one of our 
employees in December 2015 and yes, it was a kidnapping regardless of 
rumors to the contrary. Our man was working on one of the ranches we 
service that runs along the Mexican border.
    Our truck that he was driving was commandeered and he was forced to 
drive that truck, after the cartel delivered their drugs, to Willcox, 
Arizona where he was dumped out. The event occurred over 2 days and 
involved an all-out man hunt before he was freed. His life and the 
lives of his family were threatened if he called the police.
    The story sounds simple enough with an apparent happy ending. Not 
so. Our man was roughed up physically and is emotionally and mentally 
fragile. All of our tools and materials were thrown out in the pasture, 
much of them destroyed, and we still don't have our truck back or an 
insurance payment to replace it.
    Clearly the border is NOT secure. Our families and employees are at 
risk all day every day. There is a huge emotional toll on everyone 
because we live in constant fear for our lives, our employees, our 
communities and our livestock.
    The flow of illegal drugs and those running them is endless. U.S. 
Border Patrol statistics say the traffic across the border is down. 
That simply isn't the case.
    It is true that we are not seeing as many of the people of Mexico 
crossing the border looking for work as we have in the past. What we 
are seeing is drug runners and illegals from all over the world coming 
in droves across a border that has no deterrent at all.
    There are thousands of backpacks and boxes coming across daily. The 
assumption is that they are filled with drugs. The reality is that they 
could be carrying anything from explosives to nuclear weapons.
    It is more costly to do any kind of business in our region. The 
financial burden we have endured since the kidnapping is alarming. We 
had to regroup and figure out how to try and keep our employees safe. 
There was lost revenue for 2 months of not being able to send employees 
to areas near the border. It is now our policy to send two employees at 
a time, doubling our cost of doing business.
    The value of the lost tools and materials was approximately 
$13,000. Insurance paid us half of that value. The insurance company 
has refused to total the truck and we are still fighting on what they 
will pay us on both the truck and the equipment.
    Our insurance was up for renewal in March. We could find no other 
company that would even provide us with a quote. Living and working 
near the border, we are labeled as HIGH RISK. Nearly all of us in the 
area suffer break-ins almost routinely with vehicles stolen many times. 
Livestock have been taken out of pens right near the house and 
butchered in the pasture.
    Many in our area have stopped reporting break-ins and theft to 
their insurance for fear of not being able to buy insurance at all. If 
we cannot buy insurance we will probably have to go out of business. In 
today's world of lawyers, with no insurance and an injury of some kind, 
we would lose the business anyway. Our small towns are shrinking as it 
is with our young people leaving us to find work. Without insurance 
there will be no ranches and businesses to support our towns. Soon 
there will be no towns.
    This brings in an entirely different subject. The inability of our 
government to protect us brings down the value of our land. If we were 
to be forced out, we would have to take pennies on the dollar of the 
lands real worth.
    There is no insurance to cover the fences or water facilities and 
lines that are routinely destroyed in the border region. These damages 
occur even to the border fence, where there is one.
    Workers' compensation insurance is a whole other subject. New 
Mexico's workers' comp system had no idea how to handle a kidnapping 
claim. How long will it take for our employee to recover from this 
trauma? Where does he go for treatment when you live 100 miles or more 
from medical care?
    Workers' comp is mandatory in New Mexico. It is not cheap at this 
point in time. If insurance companies won't cover us, we are thrown 
into a ``pool'' where rates are doubled or tripled.
    Our lands, private, Federal and state, are strewn with litter, 
trash, human waste and perhaps even drug drops that were not picked up. 
One neighbor had 20 head of cattle die last year from reasons that 
still haven't been determined. They were not shot. They hadn't been 
attached by predators. There were no unusual plants that could have 
caused death of so many in one spot. They seemed to just fall over 
dead. The prime theory is that they consumed illegal drugs.
    Our region from Arizona to Texas has a wide variety of federally 
owned lands ranging from BLM and USFS Forest Service to wildlife 
refuges and monuments. Many of these Federal designations don't allow 
for appropriate surveillance. Mountains near us have been burned to the 
ground due to fires started by illegals. Federal land use regulations 
need an overhaul to address the specific and special needs of the 
borderlands. Law enforcement agencies and the Border Patrol need access 
to every inch of Federal lands to be able to protect our families and 
communities.
    We saw a 26 percent increase in our Federal land grazing fees this 
year and last. Our state land grazing fees went up by 21 percent last 
year and 25 percent this year. These formula-driven fees do not take 
into account the additional costs of doing business where we are not 
provided the same protections that the rest of our Nation's citizens 
enjoy.
    We all have had our differences with the Border Patrol from time to 
time, but our problems cannot be blamed on the folks on the ground 
trying to maintain the border. The agents are operating with at least 
one hand tied behind their backs. Instead of securing the border at the 
border, they are directed to patrol from 20 to 60 miles north of the 
border. Those of us south of their arbitrary lines are literally left 
in No Man's Land. The Border Patrol needs access to the border, which 
is often denied on Federal lands.
    Our county governments are going broke due to the impacts of 
illegal traffic within their jurisdiction. Residents of my county are 
struggling to keep an 8-mile stretch of road that provides access to 
the border for the Border Patrol. There are no county funds for 
maintenance and there seem to be no Federal funds available to address 
this critical area. Neighbors who will suffer additional traffic, 
bringing who knows what on to their land, are pitted against those who 
will have less traffic and hazards.
    On March 10, 2016 more than 600 people gathered in my small town of 
Animas, New Mexico to plead with elected officials from Congress all 
the way down to county commissions and sheriffs to demand Federal help 
to make us safe. I invited them and I invite each of you to come and 
spend a few days with us to see firsthand what we deal with every day 
ranging from murder, kidnapping and property destruction. Come see what 
we put up with in our backyards. Would you allow this kind of activity 
on your property? What other area of our Nation is sacrificed in this 
way?
    We are in a war with drug lords and an invasion from countries from 
around the world, friend and foe. It is time to address this war and 
invasion with our troops.
    It is time to focus border security on the border, not on New 
Mexico's Highway 9 or Interstate 10. We need more Border Patrol agents 
horseback in the hills and mountains. We appreciate the efforts of our 
elected officials since the March meeting, but it is going to take a 
grander approach to solve these issues.
    This is the United States of America. We are American citizens. We 
shouldn't be forced to live this way. The Bootheel is no less America 
and the people are no less American than anywhere else. Is it fair for 
our community to be providing food for the Nation while being left to 
fend for ourselves from smugglers and invaders?
    Thank you for your time and attention. I will stand for questions.

                                 ______
                                 

Questions Submitted for the Record by Representative Gohmert to Tricia 
                      Elbrock, Animas, New Mexico
    Question 1. How does continual illegal activity coming across the 
border impact the long-term viability of your community?

    Answer. If border is not secure and drug cartel's activities 
continue, we will see people moving out of our area, no one moving in, 
and our small community will dry up. No more schools, businesses, no 
more post office. We are a poor county and we cannot withstand loss of 
any more residents.

    Question 2. Ms. Elbrock, can you give us a sense of how the 
community is coping with the illegal activity crossing the border and 
coming into your neighborhoods?

    Answer. We all are scared, packing guns daily, installing alarm 
systems in homes if they can afford one, and making sure that you are 
in home before dark. Certain areas you do not travel alone or after 
dark.

    Question 3. We have heard from a variety of national leaders that 
the border ``is more secure than it has ever been.'' In your experience 
living and working in the border region, how does this statement 
measure up?

    Answer. We are far from being secured. Maybe in certain areas, but 
not in southwest New Mexico and southeast Arizona. We have daily 
activities with drug smugglers in our area. I invite our national 
leaders down here to our border to stay awhile and see what we put up 
with on a daily basis. No secret service or security guards. I think 
our leaders are living in their own little world in DC. Come out to the 
real world.

    Question 4. In your testimony you described a recent meeting in 
Animas, New Mexico with a large number of ranchers and other community 
members. What did you take away from that gathering that needs to be 
conveyed to Congress?

    Answer. Our border is not secure. Put our Border Patrol on the 
border, not 40-50 miles north. We need more horse patrol on the border. 
Stop the illegal crossing at the border, not on Highway 9 or I-10. We 
feel that Washington only remembers us during election years and that 
we are expendable down here. We are U.S. citizens and we demand our 
government to step up and do their job all along the borders. If our 
government is not going to do their job, then shame on them and we 
citizens will do whatever we have to do to protect ourselves, our 
families, and our properties. We think this drug smuggling is greater 
than anyone can imagine and it will take a united America to slow it 
down or stop it, if possible. If we work together and become united we 
can do this, but we cannot do it alone.
    Does our government want to secure the border? We are starting to 
believe that they do not want to and to hell with all of us who live on 
the border.

                                 ______
                                 

    Mr. Gohmert. Thank you. We have time to get in one more 
statement before we have to go vote. So, Mr. Andrew, you have 5 
minutes.

 STATEMENT OF JON ANDREW, INTERAGENCY BORDERLANDS COORDINATOR, 
        U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Andrew. Chairman Gohmert, Ranking Member Dingell, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss activities of the Department 
of the Interior along our Nation's borders.
    As the Department's Interagency Borderlands Coordinator, I 
work to coordinate the activities of the Department and its 
land managing agencies with those of the Department of Homeland 
Security and, in particular, the U.S. Border Patrol, a 
component of Customs and Border Protection, to secure our 
international borders without undue damage to our Nation's 
natural and cultural resources.
    We appreciate the attention that the subcommittee has given 
to the issue of securing our borders. DHS, including the CBP 
and Border Patrol, has been given the mandate to secure our 
international borders and deter illegal border-related 
activity. Interior has the responsibility for managing uniquely 
beautiful and environmentally sensitive lands along these 
borders.
    Interior's land managing agencies, the Bureau of Land 
Management, the National Park Service, the U.S. Fish and 
Wildlife Service, and the Bureau of Indian Affairs, take very 
seriously their responsibility to these lands on behalf of the 
American people.
    We also believe that these two objectives, securing our 
borders and conserving our Federal lands, are not mutually 
exclusive. We are not faced with a choice between the two. 
Instead, we can and should do both together in unison. In my 
testimony today, I would like to share with you a few examples 
of the ways that our departments are working together to 
achieve our separate and important missions.
    In March 2006, Interior, DHS, and USDA entered into a 
Memorandum of Understanding that provides the departments with 
guidance related to securing the borders, addressing 
emergencies involving human safety, and minimizing the 
environmental damage arising from illegal cross-border 
activities on Federal lands. The overall intent of the MOU is 
to provide the Border Patrol with the access it needs to secure 
the border, while providing for reasonable protection of 
natural and cultural resources. We believe the guidelines 
contained in the MOU have been effective in providing both 
Interior and CBP with the necessary framework to strike this 
important balance.
    For example, work at Organ Pipe Cactus National Monument in 
Arizona, using guidance in the MOU, has provided for the 
establishment of temporary infrastructure--in this case, 
roads--which will assure the Border Patrol access for routine 
patrol functions. Simultaneously, the Border Patrol was able to 
identify roads which were not needed and could be closed and 
sensitive habitat restored. This cooperation has benefited the 
missions of both departments, as improved border security has 
also enhanced protection of our natural and cultural resources. 
We are remaining in close contact with the Border Patrol to 
make adjustments to this plan as the need arises.
    In order to facilitate coordination with the Border Patrol, 
Interior established, at the headquarters level, the position I 
now hold. In addition, an Interior special agent is embedded 
with the Border Patrol in Tucson, Arizona, to assure 
coordination of law enforcement activities. The primary 
function of these positions is to coordinate and collaborate 
with Border Patrol sectors and Interior agency representatives 
on a regular basis.
    Interior, USDA, and DHS have also worked together to 
establish an environmental and cultural stewardship training 
program. This training has proven very effective in providing 
Border Patrol agents with the basic orientation on ways they 
can help to protect sensitive resources along the border.
    We have also worked to streamline the regulatory process 
wherever possible, a recent example being the expedited Section 
106 review process under the National Historic Preservation 
Act. The agreement for the Southwest border was signed in 2015, 
and a similar agreement is expected to be signed for the 
Northern border in the next few weeks.
    Furthermore, the Border Patrol, in cooperation with 
Interior and USDA, established the Public Lands Liaison Agent 
position for each of its 20 sectors. Interior land managers 
communicate and collaborate on issues of mutual interest or 
concern with these agents on a regular basis. Border Patrol 
agents frequently conduct joint patrols with Interior law 
enforcement personnel on Interior-managed lands during 
anticipated peak periods of illegal activity. These are 
designed to reduce border-related crime and target alien 
smuggling and drug trafficking organizations operating on 
Federal lands.
    DOI has also authorized the placement of border security 
infrastructure on DOI lands. Examples include remote video 
surveillance system towers, integrated fixed towers, rescue 
beacons, housing for Border Patrol agents, forward operating 
bases, equipment storage facilities, horse corrals, mobile 
surveillance systems, and tactical communication equipment.
    Chairman Gohmert and members of the subcommittee, thank you 
for your continued interest in the Administration's efforts to 
secure and protect the border region and its natural and 
cultural resources.
    This concludes my statement, and I am happy to answer any 
questions you might have.
    [The prepared statement of Mr. Andrew follows:]
Prepared Statement of Jon Andrew, Interagency Borderlands Coordinator, 
                    U.S. Department of the Interior
    Chairman Gohmert, Ranking Member Dingell and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss activities of the Department of the Interior along our 
Nation's land borders. As the Department's Interagency Borderlands 
Coordinator, I work to coordinate the activities of the Department of 
the Interior and its land managing agencies with those of the 
Department of Homeland Security (DHS), and in particular the U.S. 
Border Patrol (Border Patrol), a component of Customs and Border 
Protection (CBP), to secure our international borders without undue 
damage to our Nation's natural and cultural resources.
                              introduction
    We appreciate the attention that the subcommittee has given to the 
issue of securing our borders. DHS, including the CBP and Border 
Patrol, has been given the mandate to secure our international borders 
and deter illegal border related activity. The Department of the 
Interior (Interior) has the responsibility for managing uniquely 
beautiful and environmentally sensitive lands along these borders. As 
manager of 1 in every 5 acres of the United States, Interior's land 
managing agencies, the Bureau of Land Management (BLM), the National 
Park Service (NPS), the U.S. Fish and Wildlife Service (FWS), and the 
Bureau of Indian Affairs (BIA), take very seriously their 
responsibility to these lands on behalf of the American people.
    We also believe that these two objectives--securing our borders and 
conserving our Federal lands--are not mutually exclusive; we are not 
faced with a choice between the two. Instead, we can, and should, do 
both together in unison.
    We are proud of the strong working relationship--based on 
cooperation and a mutual commitment to accomplishing our important 
agency missions--among all of our partner agencies.
    In my testimony today, I would like to share with you the many ways 
that our Departments are working together to achieve our separate and 
important missions.
                      memorandum of understanding
    Federal agencies with law enforcement presence on Federal lands 
along the borders include Border Patrol, a component of CBP; Interior's 
various Bureaus, the BLM, NPS, FWS, and, in certain circumstances, the 
BIA; and the U.S. Department of Agriculture (USDA) U.S. Forest Service 
(USFS). These agencies have developed a cohesive, cooperative approach 
to border security.
    In March 2006, Interior, DHS, and USDA entered into a Memorandum of 
Understanding (MOU) entitled Cooperative National Security and 
Counterterrorism Efforts on Federal Lands along the United States' 
Borders. This MOU provides the Departments with goals, principles, and 
guidance related to securing the borders, addressing emergencies 
involving human safety, and minimizing the environmental damage arising 
from illegal cross-border activities on Federal lands. The MOU contains 
provisions related to the development of an efficient means of 
communication, cooperative identification of patrol routes and 
operations, conduct of joint enforcement operations, cooperation in the 
development of environmental and cultural resources awareness training, 
access by Border Patrol agents to Federal lands along the border 
(including access in exigent circumstances), and guidance on 
construction and maintenance of tactical infrastructure. The MOU also 
addresses expedited completion of environmental compliance documents, 
including documents required by the National Environmental Policy Act 
and the Endangered Species Act.
    Our goal is to provide flexibility and realistic options for patrol 
and infrastructure access to Interior lands by CBP while continuing to 
maintain an emphasis on protection of Federal trust resources such as 
endangered species, cultural resources, tribal interests, national 
wildlife refuges, national parks, public lands, and designated 
wilderness. We believe the guidelines contained in the MOU have been 
effective in providing both Interior and CBP with the necessary 
framework to strike this important balance.
    The MOU has been very useful in providing a framework for Interior 
agencies to work with the Border Patrol to help the Border Patrol 
fulfill its mission while mitigating impacts on sensitive resources 
managed by Interior agencies. For example, work at Organ Pipe Cactus 
National Monument in Arizona using guidance in the MOU has provided for 
the establishment of temporary infrastructure, in this case roads, 
which will assure the Border Patrol access for routine patrol 
functions. Simultaneously, the Border Patrol was able to identify roads 
which were not needed and could be closed and the sensitive habitat 
restored. This cooperation has benefited the missions of both 
Departments, as improved border security has also enhanced protection 
of our natural and cultural resources. We are remaining in close 
contact with the Border Patrol to make adjustments to this plan as the 
need arises.
    Since entering into this MOU, the three Departments have 
continually and successfully collaborated to administer the tenets 
outlined in the MOU at both the Headquarters and the field levels. The 
Departments have also worked collaboratively to address concerns 
regarding coordination to continually improve our efforts to secure our 
borders while conserving the environment. For example, the Departments 
have entered into additional MOU/MOAs that address issues including 
road maintenance, secure radio communication, environmental 
coordination, and sharing of geospatial information, among others. 
Annual meetings are convened to discuss the need to revise the 2006 MOU 
but all participants have agreed that no revisions are currently 
needed.
   coordinated federal responses to illegal activity on federal lands
Regular Management Collaboration
    In order to facilitate efforts with the Border Patrol to address 
the challenges presented by illegal cross-border activity on our lands, 
Interior has established at the headquarters level a department-wide 
coordination structure. This includes the establishment, within 
Interior's Office of Law Enforcement and Security, of an Interagency 
Borderlands Coordinator for environmental coordination. In addition a 
Special Agent is embedded with the Border Patrol in Tucson, Arizona to 
assure coordination of law enforcement activities. The primary function 
of these positions is to coordinate and collaborate with Border Patrol 
Sectors and Interior agency representatives on a regular basis.
    Additionally, at the headquarters level, Interior, USDA, and DHS 
have worked together to establish training modules such as the 
Environmental and Cultural Stewardship Training program. This online 
module is now required training for all Border Patrol agents. It has 
proven very effective in providing Border Patrol agents with a basic 
orientation on ways they can help to protect sensitive resources along 
the border.
    Interior has also worked with DHS and the Forest Service to develop 
a streamlined process for evaluating impacts on cultural and historic 
resources that is required under Section 106 of the National Historic 
Preservation Act. The agreement for the Southwest border was signed in 
2015 and a similar agreement is expected to be signed for the Northern 
border in the next few weeks.
On the Ground Collaboration
    Collaboration also takes place with the Border Patrol at the field 
level. The Border Patrol, in cooperation with Interior and USDA, 
established a Public Lands Liaison Agent (PLLA) position for each of 
its 20 Sectors. Interior land managers communicate and collaborate on 
issues of mutual interest or concern with these PLLAs on a regular 
basis. Meetings between the land managers and the PLLAs are held every 
few months, or more often if needed, to facilitate open and regular 
communication, cross-training, and sharing of intelligence.
    In addition, Border Patrol agents frequently conduct joint patrols 
with Interior law enforcement personnel on Interior-managed lands, 
including national parks, wildlife refuges, and public lands. This 
close coordination provides staff with training and orientation on each 
agency's mission, while enhancing homeland security activities and 
resource-related investigations.
    Law enforcement patrol operations have been conducted during 
anticipated peak periods of illegal activity, through joint actions 
such as Operation Trident Surge in Arizona or Operation Take it Outside 
in California. The operations included the BLM, NPS, FWS, USFS, and the 
Border Patrol, and consisted of intelligence-supported joint patrols on 
Interior and USFS managed lands. The operations were designed to reduce 
border-related crime and provide additional intelligence to Border 
Patrol to identify and target Alien Smuggling Organizations and Drug 
Trafficking Organizations operating on Federal lands. Interior law 
enforcement officers focused on resource mission-related violations 
during this operation. This effort served to deter illegal smuggling 
into the United States.
    These few examples typify the ongoing, collaborative dialogue and 
strong relationships that Interior agencies and personnel have 
developed with our colleagues in Border Patrol. As discussed in more 
detail below, the cooperation and collaboration evident in these 
operations across the border areas, including areas within national 
parks, wildlife refuges, and public lands, has led to reduced 
environmental impacts on Federal lands along the border.
                         addressing the impacts
    The deployment of CBP personnel, equipment and infrastructure along 
the Southwest border has led to significant improvements in border 
security. These improvements have both enhanced the security of our 
Nation, and lead to overall healthier conditions on Interior lands 
along the border. Many of the natural and cultural resources under 
Interior's responsibility have been adversely affected by illegal 
activities due to accumulations of trash, establishment of illegal 
roads and trails, and overall degradation of the environment. By 
deploying personnel, equipment, and infrastructure, CBP operations have 
reduced cross-border illegal activity and the environmental impacts of 
this illegal activity in a number of areas.
    Examples of infrastructure put in place by CBP include: Remote 
Video Surveillance System towers, Integrated Fixed Towers, rescue 
beacons, housing for Border Patrol agents, Forward Operating Bases 
(FOB), equipment storage facilities, horse corrals and mobile 
surveillance systems such as the Ground Based Operational Surveillance 
System (GBOSS) used in Arizona. Tactical communication needs are 
critical to the security of Border Patrol agents and Interior personnel 
and we have worked closely to assure adjustments can be made in 
placement and maintenance of these facilities when they are present on 
Interior managed lands. Maintenance of roads and fences have also 
become more routine through issuance of permits and rights-of-way by 
Interior's land managing agencies.
    During deployment of additional border security resources, Interior 
worked closely with the Border Patrol to avoid or mitigate impacts to 
the environment by coordinating border security work with local Federal 
land managers. These mitigation activities have had no impact on the 
ability of the Border Patrol to protect the border.
    We have made and are continuing to make significant progress and we 
recognize DHS's leadership on these issues.
                               conclusion
    As detailed in this testimony, we are committed to the collective 
efforts that Interior, DHS, and USDA have taken to meet the intent of 
the 2006 Interagency MOU and the shared commitment by our Departments 
to fulfill the mission of each agency. We believe that we have been and 
will continue to be successful in securing our borders and conserving 
our Federal lands.
    Chairman Gohmert, and the members of the subcommittee, thank you 
for your continued interest in the Administration's efforts to secure 
and protect the border region and its natural and cultural resources. 
This concludes my statement, and I am happy to answer any questions 
that you might have.

                                 ______
                                 

     Questions Submitted for the Record to Jon Andrew, Interagency 
        Borderlands Coordinator, U.S. Department of the Interior
             Questions Submitted by Representative Gohmert
    Question 1. In 2010, the CAO issued a report detailing delays 
encountered by Border Patrol when trying to do their jobs on Federal 
land. What specifically has been done to improve those delays?

    Answer. A wide variety of measures have been put in place to ensure 
that the U.S. Border Patrol (USBP) has the access it requires to 
provide border security. To enhance communication with the USBP, the 
Department of the Interior (DOI), including its bureaus, the U.S. Fish 
and Wildlife Service (FWS), the Bureau of Land Management (BLM), the 
Bureau of Indian Affairs (BIA), and the National Park Service (NPS), 
have instituted, with USBP, biweekly conference calls at the 
headquarters level, and regular conference calls at the field level on 
specific projects or issues such as the planned construction of Remote 
Video Surveillance towers in South Texas. DOI has also convened 
executive level annual meetings to review status of work under the 2006 
MOU and exchange information among DOI Bureaus, USBP and the U.S. 
Forest Service.
    Additionally, at the field level, the maturation of the Borderland 
Management Task Force (BMTF) program and the deployment of USBP Public 
Lands Liaison Agents in each sector has helped communication and 
coordination on day-to-day operational activities. BMTFs meet on a 
regular basis to discuss issues and concerns related to the environment 
and border security.
    To facilitate access for the USBP, DOI bureaus have authorized the 
use of lands and facilities in many locations. For example, the FWS has 
authorized horse corrals and boat storage on national wildlife refuge 
lands in south Texas in close proximity to the border; NPS has 
authorized the occupancy of residential housing at Big Bend National 
Park and the construction and operation of forward operating bases on 
Organ Pipe Cactus National Monument; and FWS, NPS, and BLM have each 
variously authorized the placement of communication and surveillance 
equipment in national wildlife refuges, parks and public lands.
    DOI has developed, in cooperation with the U.S. Forest Service and 
the USBP, wilderness management training for the USBP, and additional 
internal training to orient USBP agents on environmental concerns.
    A specific example where these measures have worked exceptionally 
well is at Organ Pipe Cactus National Monument. The NPS identified 
access requirements in wilderness with USBP to ensure that the agents 
had the access needed for security, while also identifying roads that 
could be closed and restored to their original condition.

    Question 2. When did the process of updating Border Patrol 
communications equipment at Cabeza Prieta National Wildlife Refuge 
commence? To your knowledge, why is that equipment important? Has the 
new equipment been installed?

    Answer. The Cabeza Prieta National Wildlife Refuge (Refuge) shares 
56 miles of international border with Mexico and is a major travel 
corridor for illegal drug smuggling. The U.S. Customs and Border 
Protection's (CBP) Office of Information and Technology first began 
discussions with the Refuge in late 2008/early 2009 regarding the 
upgrade of existing equipment and installation of new equipment. Lack 
of repeater towers created significant gaps in communication for law 
enforcement officials while in pursuit of cross border migrants and 
smugglers, posing a serious threat to the health and safety of visitors 
and government personnel, and mission critical operations. Discussions 
continued with the goal of finding ways to address these concerns, 
while minimizing disturbance of a protected landscape (wilderness 
area). The environmental planning process began in October 2012 with 
CBP's preliminary draft environmental assessment.
    The Service and CBP believe the replacement of the existing Land 
Mobile Radio (LMR) equipment with ``state-of-the-art'' digital 
technology compliant with Project 25 National Telecommunications and 
Information Administration standards at Buck Peak and the installation 
of new equipment at Granite Mountain and Christmas Pass would improve 
communications interoperability, over-the-air rekeying, and advanced 
encryption. The Service will co-locate LMR equipment at the CBP sites 
allowing for improved communications and coverage for both parties. LMR 
equipment was installed at Christmas Pass on May 18, 2016. It is 
anticipated that the other two sites, Buck Peak and Granite Mountain, 
will be installed in the fall of 2016.

    Question 3. On a day-to-day basis how would you describe your 
responsibilities as Borderland Coordinator for Interior and to what 
extent do you communicate with the Border Patrol?

    Answer. The focus of the Borderland Coordinator for DOI is to 
coordinate and communicate with the USBP as needed to facilitate access 
to DOI-managed lands in such a way as to minimize impacts on DOI 
natural, cultural and trust resources. In this role, I have nearly 
daily contact with Department of Homeland Security (DHS) and USBP 
personnel. I attend BMTF meetings, and assist with training and 
orientation of USBP agents. For specific projects of larger scope, I 
may become directly involved with monitoring progress of the project, 
attending meetings and participating in conference calls. I participate 
in a bi-weekly conference call with DHS and USBP personnel at the 
headquarters level to resolve issues and facilitate completion of 
projects.

    Question 4. The BLM has insisted on issuance of right-of-way 
permits to authorize Border Patrol to maintain existing roads on BLM 
lands in New Mexico, Arizona, and California. This requirement has cost 
the taxpayers for onerous environmental compliance and delayed needed 
maintenance of critical roads for more than 3 years. What is preventing 
your office from directing BLM to issue Special Use Permits immediately 
to enable Border Patrol to maintain these existing roads in the same 
manner that BLM has issued Special Use Permits for road maintenance to 
other government entities? Now that the 2006 MOU is 10 years old, why 
do delays like this remain?

    Answer. We understand and share your interest in making sure that 
the U.S. Customs and Border Protection (CBP) maintains critical roads 
and access in order to protect our Nation's borders. However, BLM does 
not have the authority to permit the type of road work sought by CBP 
under a special use permit or a memorandum of understanding. Instead, 
the BLM is working closely with the CBP to support this very important 
mission through a right-of-way permitting process. BLM is working 
diligently with CBP to get their right-of-way application processed, 
which by law requires environmental review and public involvement.

    Question 5. At Organ Pipe Cactus National Monument, the National 
Park Service insisted that no Border Patrol surveillance towers be 
constructed in designated wilderness. As a result, towers were placed 
as far as 20 miles north of the border. This limitation imposed by DOI 
has had a significant adverse effect on the capability of this 
technology to locate and interdict illegal traffic at the border. Would 
the Department support construction of surveillance towers in 
designated or proposed wilderness areas under minimum tool provisions?

    Answer. The towers now in place at Organ Pipe Cactus National 
Monument have been very helpful in preventing and interdicting illegal 
activity. DOI is ready to discuss placement of additional towers if DHS 
determines there is a need and a specific proposal is developed. We 
would seek to balance placement of this infrastructure to avoid or 
minimize impacts on endangered species and wilderness and to mitigate 
any remaining impacts on the environment. Specifically with regard to 
designated wilderness and in accordance with law, a minimum tool 
analysis would be required prior to construction.
    We are currently coordinating with DHS on construction of 
additional towers in Sonoita and Douglas, Arizona which were previously 
reviewed and approved. Planning is continuing for placement of towers 
on the Tohono O'odham Nation. We are not aware of any proposals for 
additional tower work in southwest Arizona.

    Question 6. In Idaho, Border Patrol has experienced more than 4 
years of delay and costs exceeding $1 million for environmental 
compliance to enable maintenance and repair of 5.6 miles of existing 
road in Idaho Panhandle National Forest. The sole issue of any 
consequence is potential impacts to the listed grizzly bear. Given that 
there are already hundreds of miles of roads within the 1.4 million 
acre Selkirk Grizzly Bear Recovery Zone, and that the bear is already 
making steady progress toward recovery within the zone, does the 
Department have any data to support a conclusion that maintenance and 
repair of this additional 5.6 miles of road in marginal grizzly bear 
habitat or the subsequent use of the road exclusively by law 
enforcement personnel an estimated 30 times per year would have any 
significant impact on grizzly bear?

    Answer. The action described is one component of a larger 
management effort. In 2013, the U.S. Fish and Wildlife Service (FWS) 
and Forest Service (FS) completed the ESA consultation on the Land and 
Resource Management Plan for the Idaho Panhandle National Forest (IPNF) 
(Revised Plan). The purpose of the Revised Plan is to provide direction 
for the IPNF land management by guiding programs, practices, uses, and 
projects. The Revised Plan provides guidance for project and activity 
decision-making on the IPNF for approximately the next 15 years, 
including motorized access management within the Selkirk and Cabinet-
Yaak Grizzly Bear Recovery Zones. Over the past few years, U.S. Customs 
and Border Protection (CBP) has sought to utilize the road for security 
purposes and has been engaged with the FWS and FS to identify a path 
forward that will allow all agencies to meet their respective missions 
and goals. The agencies continued to discuss this as the land 
management plan was revised. The action described impacts not only to 
threatened grizzly bears but endangered Woodland caribou as well.
    The FS and CBP are developing a draft joint EIS NEPA document. The 
draft EIS will lay out different alternatives that will facilitate 
CBP's access along the Canadian border to meet the United States' 
security interest, while enabling the FS to meet its forest management 
standards relative to grizzlies and caribou. Once the EIS is finalized 
and an alternative is selected, the FS and CBP will submit a joint 
Biological Assessment and the FWS will conduct an ESA section 7 
consultation on the proposed action. The upfront coordination should 
allow for the development of alternatives that minimize the negative 
impacts to grizzlies and caribou while meeting the goals of FS 
management and CBP's security needs.

    Question 7. There have been periodic claims in the press that 
border fence construction has resulted in impacts to wildlife. Is the 
Department of the Interior aware of any peer-reviewed, scientific 
studies which document impacts of border fence construction or 
operations on native wildlife populations?

    Answer. Yes, DOI is aware of some peer-reviewed articles and other 
publications that have shown the impacts of border fence construction 
or operations on native wildlife populations, including the following 
articles:

        Atwood, T. (2011), Modeling connectivity of black bears in a 
        desert sky island archipelago. Biological Conservation, Vol 
        144, Issue 12, December 2011, Pgs 2851-2862.

        McCallum, TW, Rowcliffe, JM, Cuthill, IC. (2014), Conservation 
        on International Boundaries: The Impact of Security Barriers on 
        Selected Terrestrial Mammals in Four Protected Areas in 
        Arizona, USA. PLoS ONE 9(4): e93679. doi: 10.1371/
        journal.pone.0093679.

        Lopez-Hoffman, L (2009), Conservation of Shared Environments: 
        Learning from the United States and Mexico. THE EDGE: 
        Environmental Science, Law, and Policy. December 1, 2009.

        Parra Renteria, Carlos de la (2007), A Barrier to Our Shared 
        Environment: The Border Fence Between the United States and 
        Mexico. Secretariat of Environment and Natural Resources. ISBN 
        9687947640, 9789687947648.

        Pitt, J. (2011), Conservation of Shared Environments: Learning 
        from the United States and Mexico. Restoration Ecology, 19: 
        290-291. doi: 10.1111/j.1526-100X.2010.00764.x.

        Flesch, A. (2011), Up Against the Wall: Border Fence Impacts on 
        Wildlife. Life on the Line. Vol. 5, No. 4, The Wildlife 
        professional: Winter 2011. P6. University of Arizona's School 
        of Natural Resources and the Environment.

        Abhat, D. (2011), Fenced Out: Wildlife Impacts of the U.S.-
        Mexico Border Fence. Vol. 5, No. 4, The Wildlife professional: 
        Winter 2011. Pgs 22-27.

        Flesch, A. (2010), Potential Effects of the United States-
        Mexico Border Fence on Wildlife. Vol. 24, No. 1, 2010. 
        Conservation Biology--Contributed Paper. Avian Science Center, 
        Division of Biological Sciences, University of Montana, 
        Missoula, MT. Pgs 171-181.

        McCallum, J. (2014), Conservation on International Boundaries: 
        The Impact of Security Barriers on Selected Terrestrial Mammals 
        in Four Protected Areas in Arizona. PLOS ONE/www.plosone.org 1 
        April 2014/Volume 9/Issue 4/e93679 2014. Pgs 1-11.

        Wheelwright, J. (2014), Hemmed-in-Border Article on Corridors. 
        Discover Magazine. Pgs 48-55.

        Rohrman, D. (2008), Chertoff's Monster. Frontiers in Ecology 
        and the Environment. Vol. 6, No. 4 (May 2008), p. 219 Published 
        by: Wiley Stable URL: http://www.jstor.org/stable/20440876 
        Accessed: 04-08-2016 21:05.

        Lopez-Hoffman, L. (2010), Ecosystem services across borders: a 
        framework for transboundary conservation policy. Source: 
        Frontiers in Ecology and the Environment, Vol. 8, No. 2 (March 
        2010), pgs. 84-91 Published by: Wiley Stable URL: http://
        www.jstor.org/stable/20696434 Accessed: 04-08-2016 20:52 UTC.

        Cohn, J. (2007), The Environmental Impacts of a Border Fence. 
        Source: BioScience, Vol. 57, No. 1 (January 2007), p. 96 
        Published by: Oxford University Press on behalf of the American 
        Institute of Biological Sciences Stable URL: http://
        www.jstor.org/stable/10.1641/b570116 Accessed: 05-08-2016 16:19 
        UTC.

        Flesch, A. (2009), Potential Effects of the United States-
        Mexico Border Fence on Wildlife Efectos Potenciales de la Barda 
        en la Frontera Estados Unidos-Mexico sobre la Vida Silvestre. 
        Journal. Conservation Biology. Published Date 23 June 2009. 
        DOI: 1O.1111/j.1523-1739.2009.01277.x.

        Mumme, S. (2015), The Evolution of Natural Resource 
        Conservation Capacity on the U.S.-Mexico Border: Bilateral and 
        Trilateral Environmental Agreements since La Paz. RPR--Review 
        of Policy Research. Published Date 8 January 2015. DOI: 
        10.1111/ropr.12109.
    Question 8. Your testimony stated: ``The deployment of CBP 
personnel, equipment and infrastructure along the southwest border has 
led to significant improvements in border security. These improvements 
have both enhanced the security of our Nation, and lead to overall 
healthier conditions on Interior lands along the border.'' Do you agree 
that the best mitigation for border security activities is in fact a 
secure border?

    Answer. Mitigation activities consist of actions taken to offset 
the impacts of the placement or construction of border security 
infrastructure, including walls, vehicle barriers, and pedestrian 
barriers, on the landscape or on wildlife. In certain locations, 
placement of border security infrastructure has greatly curtailed 
illegal activities and has improved conditions for wildlife and 
habitat, e.g., Buenos Aires National Wildlife Refuge. In other 
locations, the construction of border security infrastructure would 
block or deter to movement of wildlife and would be considered to have 
negative impacts. Consequently, the placement of border security 
infrastructure itself would not be considered a mitigation measure.

    Question 9. Your written testimony states that ``mitigation 
activities have had no impact on the ability of the Border Patrol to 
protect the border.'' Would you please clarify that statement? The GAO 
has clearly documented through interviews and investigation that there 
has definitely been an impact. Are we to understand from your testimony 
that there have never been impacts, or that there haven't been impacts 
lately? If there haven't been any lately, please define ``lately.'' 
Your oral testimony seemed to contradict the very definitive ``no 
impact'' statement in the written testimony. When questioned by Mr. 
Labrador about whether Border Patrol had been hampered, you stated that 
you ``hope not'' and that conversations with your fellow witness 
Commissioner Pinkerton had been ``educational'' with regard to access 
on the Northern Border. The committee appreciates your candor, but 
would also like to provide you the opportunity to clarify your 
definitive ``no impact'' statement with your refreshingly honest 
response that you ``hope'' Interior activities haven't hampered border 
security and that information gained from Commissioner Pinkerton was 
educational in such a way as to give you reason to question your 
written statement. Please respond with your updated and current 
understanding of whether or not there has been ``no impact'' to border 
security related to Interior activities, mitigation, prohibitions and 
delays.

    Answer. Mitigation activities consist of actions taken to offset 
the impacts of the placement or construction of border security 
infrastructure, including walls, vehicle barriers, and pedestrian 
barriers, on the landscape or on wildlife. In this context, a specific 
example of a mitigation activity would be the revegetation of a 
previously disturbed site or the adjustments in the proposed locations 
of security infrastructure. These mitigation activities are conducted 
in concert with the USBP to ensure that we are not impacting the 
ability of the USBP to accomplish its mission.
    With regard to access on the Northern border, the issue raised by 
Rep. Labrador is best addressed by the U.S. Forest Service, the agency 
with administrative jurisdiction of the land in question. DOI is 
available to assist in consultation under the Endangered Species Act, 
as appropriate.

             Questions Submitted by Representative Grijalva
    Question 1. In their hearing memorandum, the majority members cited 
a U.S. Fish & Wildlife Service announcement about the installation of 
radio repeaters at Cabeza Prieta National Wildlife Refuge on April 11, 
2016. It appears that the Border Patrol notified the Refuge of their 
desire to install these radio repeaters in 2013, yet the radio 
repeaters are just now being installed. Is the majority correct that 
the environmental review process for this equipment took 3 years to 
complete?

    Answer. Discussions between U.S. Customs and Border Protection 
(CBP) and the U.S. Fish and Wildlife Service (Service) began in late 
2008/early 2009 regarding the potential installation of a Land Mobile 
Radio (LMR) communications system on Cabeza Prieta National Wildlife 
Refuge (Refuge). Discussions were preliminary and required logistical 
decisions regarding where radio equipment would go and specific design 
features required to meet operational need and minimize visual 
disturbances that negatively impact wilderness values, as well as 
determining the footprint and required access to and from the sites for 
maintenance.
    In October 2012, the environmental review began when CBP issued a 
preliminary draft Environmental Assessment (EA) followed by a draft EA. 
This document was released for public review on May 29, 2013. At this 
time, CBP initiated Section 7 consultation per the Endangered Species 
Act of 1973. The Service made a determination, in accordance with the 
National Wildlife Refuge System Improvement Act of 1997, that the 
project was compatible with the purpose of the Refuge and a Minimum 
Requirements Analysis in accordance with the Wilderness Act of 1964 was 
completed. These documents were incorporated into the final EA and into 
the Finding of no Significant Impact (FONSI) issued by CBP in September 
2013. The Service completed its own FONSI on December 3, 2013, thus 
completing the environmental review of this project.
    On September 12, 2013, CBP made a formal request for a right-of-way 
permit and in December 2013, the Service issued CBP a special use 
permit to conduct a geo-technical survey of three proposed sites in 
preparation for developing engineering drawings and to determine the 
appropriate grounding solution and foundation design parameters for 
each site.
    In January 2014, right-of-way paperwork was submitted to the 
Service. However, due to changes in personnel both at CBP and within 
the Service, the project was paused until January 2015, when CBP 
contacted the Service requesting status of the right-of-way (ROW) 
permit. The Service identified the information still needed from CBP to 
complete the ROW permit, including drawings and maps with precise 
locations for the LMR sites. The Service developed a draft ROW permit 
in December 2015. Both parties signed and finalized the ROW permit in 
February 2016.
    The original FONSI developed by CBP called for deploying and 
testing the efficacy of the LMR repeaters at Buck Peak and Granite 
Mountain and then installing the Christmas Pass LMR repeater after a 
determination was made that it was needed. In October 2015, the local 
Yuma Sector Border Patrol requested that a temporary repeater be 
allowed on Christmas Pass rather than wait for the other repeaters to 
be installed. Because of the changes from the original proposal in the 
EA and FONSIs, both the CBP and Service developed a categorical 
exclusion document to comply with the National Environmental Policy Act 
(NEPA) and the Service completed a new Minimum Requirements Analysis 
per the Wilderness Act. The Service issued a special use permit to CBP 
on May 9, 2016, and CBP completed installation of the temporary LMR 
repeater at Christmas Pass on May 18, 2016.
    The CBP is currently obtaining equipment and material that will be 
staged in Tucson with the intent of beginning installation of a LMR 
repeater on Buck Peak in September or October, 2016. Per various 
environmental constraints, September through December is the only 
window open for installation.

                                 ______
                                 

    Mr. Gohmert. Thank you. At this time we need to go vote. 
There are three votes scheduled. We will resume, hopefully, no 
later than 30 minutes. We will try to get back sooner, if we 
can. Thank you. We are in recess.
    [Recess.]
    Mr. Gohmert. The hearing is now called back into order. 
When we recessed, we had just finished with Mr. Andrew's 
statement.
    At this time, Mr. Pinkerton, you are recognized for 5 
minutes to make an oral statement to the committee. Thank you 
for being here.

 STATEMENT OF LeALAN PINKERTON, COMMISSIONER, BOUNDARY COUNTY, 
                      BONNERS FERRY, IDAHO

    Mr. Pinkerton. Thank you, Mr. Chairman. My name is LeAlan 
L. Pinkerton, I am a Commissioner for Boundary County, Idaho. I 
thank you for inviting me here today.
    Today, I intend to give you an overview describing the 
consequences created in the management of our national forests, 
which are essentially impacted or directed by rulings from the 
bench, the Endangered Species Act, biological opinions, and the 
volumes of National Environmental Policy Act requirements.
    First, national security issues. The U.S. Border Patrol 
shoulders a daunting task, patrolling the rugged and remote 
land masses of the Selkirk, Purcell, and Cabinet mountain 
ranges, as well as all areas in between. The overwhelming 
majority of the area is mountainous and timbered. Access is 
vital to the success in securing the border and affords the 
Border Patrol the ability to secure these remote areas, 
maintain a secure border, and expand into adjoining areas.
    The Border Patrol has a number of tools available for 
patrol activities. However, none of them provide the advantages 
as well as a vehicle. Unabated, the existing road and trail 
system supports the operational requirements of patrol. Access 
restrictions create a debilitating effect, and vast areas of 
the border go infrequently monitored or go without patrol all 
together. Resource managers have placed these restrictions 
primarily because of ESA standards and biological opinions to 
limit motorized traffic into recovery zones of the grizzly 
bear.
    The Forest Service and the Fish and Wildlife Service 
categorize all motorized access as an administrative trip, 
albeit, the Border Patrol's mission is not administrative in 
nature. Nevertheless, each patrol into the recovery zone is 
subject to the limits of the administrative trip cap being 
shared among all agencies.
    The land managers have put up gates on roads, have not 
provided keys, removed culverts, decommissioned roads, et 
cetera. They seldom give any notification or forewarning. All 
these agencies have been tasked with cooperating among one 
another through the Memorandum of Understanding signed by each 
agency's Secretary in March of 2006. However, it is also my 
belief that this region's Fish and Wildlife and U.S. Forest 
Service have deliberately ignored the spirit of this directive.
    An example of this is the Bald Creek Road closure. This 
closure can add up to 3\1/2\ hours of travel in making 
responses, rendering about 25 miles of border unsecurable. This 
type of conflict is largely repetitive in many locations and 
jurisdictions along our Northern border. The security of our 
Nation's borders and our citizens is paramount. Border security 
should not continue to be compromised because of wildlife and 
natural resource restrictions.
    Rural county issues--about 495,000 acres, or 61 percent, of 
Boundary County consists of Federal land. Roughly 90 percent of 
that is bound by restrictions. Only about 50,000 acres of 
Federal land remains available, with limited access for forest 
management to supply our natural resource-driven economy. 
Boundary County's economic vitality is dependent upon the 
timber industry, as it has been for the last 100 years. There 
is no shortage of timber, and wildlife habitat is abundant.
    However, much of the timber is aging to the point of over-
maturing, in need of harvest to control disease and loss. My 
county, at one time, had over seven saw mills in varying sizes, 
providing employees with a family wage job. We now are down to 
two, one medium and one large. Infrastructure is leaving. The 
volume of timber provided to these steadily decreased over the 
years that have gone by. The forest district, prior to 1990, 
averaged a harvest volume of 30.8 million board feet per year. 
During the time frame of 2001 to 2010, the district averaged 
14.4 million board feet per year, and most of these projects 
were appealed and several were litigated. This is merely a 
snapshot of how much influence the courts have in forest 
management. Due to litigation, the courts essentially make 
critical forest management determinations.
    Today, harvest targets are approximately 20 million board 
feet per year, or about 25 percent of our local timber supply. 
Timber growth volumes, however, continue to increase by several 
times beyond targeted harvest amounts. Aging timber is more and 
more susceptible to disease, insect damage, and weather damage, 
which increases the likelihood of catastrophic wildfire.
    The majority of the national forest in Boundary County has 
been identified by fire hazard assessments as being at high 
risk for wildfire. Annually, the Forest Service spends 
countless millions for wildfire suppression while habitat is 
suffering from the effects. My community does not hold any 
animosity toward the listing of any wildlife species, but they 
do take offense to the restrictions that come along with it.
    These restrictions have been created by agency rules, 
litigation, and antiquated science--science that has been 
tagged as the best science available. The counties of Idaho 
have continually tried to correct and protect our access to 
Federal lands. But, ultimately, any change must come from 
Congress.
    I could have bored you with statistics, but they cannot 
explain the whole story. Now is the time to really look at 
positive changes to the Acts that guide how Federal lands and 
wildlife are managed. I urge you to make the necessary changes 
for the sake of all our citizens.
    In conclusion, sir, I thank you for listening and for your 
consideration of these matters. It has been my distinct honor 
to be here before you to speak today.
    [The prepared statement of Mr. Pinkerton follows:]
      Prepared Statement of LeAlan L. Pinkerton, Boundary County 
  Commissioner, District 1, Board of Commissioners, Boundary County, 
                                 Idaho
    Please allow me to begin with thanking you for inviting me here 
today to offer my testimony regarding the Consequences of Federal Land 
Management along the U.S. Border to Rural Communities and National 
Security.
    My name is LeAlan L. Pinkerton. I am currently serving in my second 
term as Boundary County Commissioner, District 1, Board of 
Commissioners, Boundary County, Idaho. I have served in this capacity 
since January, 2013.
    Prior to being elected into office, I was employed by U.S. 
Immigration and Naturalization Service and the Department of Homeland 
Security, U.S. Border Patrol for over 23 years. The final 8 years of my 
career was concluded in Spokane, Washington, where I retired from the 
position of Assistant Chief Patrol Agent of the Spokane Sector in May, 
2010.
    Today, I intend to give you an overview describing the consequences 
created in the management of our national forests, accepting that much 
of the management decisions are significantly impacted or directed by 
rulings from the bench, the Endangered Species Act (ESA), biological 
opinions, and the volumes of National Environmental Policy Act 
requirements.
First, National Security Issues
    In Boundary County, Idaho the U.S. Border Patrol shoulders the 
daunting task of patrolling the rugged and remote land masses of the 
Selkirk, the Purcell, and the Cabinet Mountain ranges as well as all 
areas in between. The overwhelming majority of the area is largely 
mountainous and timbered with occasional valleys and farming districts. 
Unquestionably, access is vital to achieve any measure of success in 
securing the border. This access affords the Border Patrol the ability 
to secure these remote areas, the maintenance of a secure border and 
expansion into adjoining areas needing control.
    The Border Patrol has a number of tools available to support patrol 
activities, such as the use of ATV's, horses, snowmobiles, sensors, 
etc. However, none of these tools provide the advantage, timeliness, 
communication ability, or officer safety, as a vehicle. Unabated, the 
established existing road and trail system can support the operational 
requirements for the patrol function. Conversely, access restrictions 
placed by the resource managers: U.S. Forest Service (USFS) and the 
U.S. Fish and Wildlife Service (USFWS); creates a debilitating effect 
on such activities. Largely, vast border areas are infrequently 
monitored or go without patrol all together.
    Resource managers have instituted these restrictions primarily as a 
result of ESA standards and biological opinions governing motorized 
traffic into the recovery zone of the Grizzly bear. Managers assert 
allowable ``administrative trips'' and ``open road density standards.'' 
Accordingly, in one Grizzly Bear recovery management area (Bog Creek), 
the maximum allowable annual ``administrative trips'' are capped at 57 
motorized trips per year. These trips are combined for the use of all 
agencies and jurisdictions, with no law enforcement exemption. The USFS 
and USFWS categorize the Border Patrol's access as an ``administrative 
trip,'' albeit the Border Patrols mission is not ``administrative'' in 
nature. Never-the-less, each patrol into the recovery zone is subject 
to the limits of the ``administrative trip'' cap (57) being shared 
among all agencies.
    The USFS and USFWS managers have affected a number of measures to 
inhibit the Border Patrol's ability to access the border areas. They 
have placed gates on roads not previously gated. They have not provided 
keys in a timely fashion. They have changed locks on gated roads 
currently in use without providing keys in advance. They have removed 
culverts, decommissioned roads, dug tank traps and placed large 
boulders in roadways, etc. The USFS seldom gives any notification or 
fore-warning that such measures were scheduled or taking place.
    All these agencies have been tasked with cooperating among one 
another as formalized through the Memorandum of Understanding titled 
``Cooperative National Security and Counter-Terrorism Efforts on 
Federal Lands along the United States Border'', written and agreed upon 
in March of 2006 and signed by the Secretary of Interior, Secretary of 
Agriculture, and Secretary of Homeland Security. However, it is also my 
belief that this region's USFS and USFWS have deliberately ignored the 
spirit of this directive.
    Simply put, the USFS and USFWS have placed the recovery of the 
Grizzly Bear, Caribou, Linx and other wildlife species as a priority 
above our Nation's security.
    As an example, in 2006 while I was still employed as an Assistant 
Chief Patrol Agent of the Border Patrol in the Spokane Sector, I pushed 
for access along the border on the forest road in the Selkirk Mountains 
known as ``Bog Creek.'' This road intersects a number of roads in the 
border area providing approximately 25 miles of border coverage. It has 
been in existence for decades but was gated and closed to public 
traffic in the mid-1980s. Subsequently, as a result of the lack of 
maintenance, a culvert clogged up and a portion of the road caved away. 
The Border Patrol had routinely used this road for patrol purposes 
since its construction. But, since the area is within the Grizzly Bear 
Recovery area, the USFS and USFWS do not want to allow traffic on this 
road. Nor do they want to fund the repairs or maintenance needed to 
bring it back into serviceable condition for vehicular use. As a result 
the Border Patrol cannot use vehicles to patrol this entire length of 
border. In response to any incursion within this border area, the 
Border Patrol must traverse around the mountain range to the south then 
back to the north over distances that require a minimum of 3.5 hours of 
travel time. Throughout this particular area, no degree of security can 
be achieved without the use of Bog Creek Road. No level of deterrence 
to potential cross border illegal activity can be established, nor can 
any measure of control be obtainable.
    Although, this type of conflict is largely repetitive with regards 
to operations of the Border Patrol within the Spokane Sector and 
Boundary County, Idaho, it is not isolated to this agency or locality. 
It is an ongoing affair, or tactic, being used by the Federal land and 
wildlife management agencies in countless locations and jurisdictions 
along our Northern border. These same conflicts apply to our Local 
Sheriff's Department, Emergency Medical Services, Wild fire Response, 
Search and Rescue units, just to name a few.
    I exclaim, as an elected official and a citizen, that the security 
of our Nation's borders and our citizens is paramount. Border Security 
should not continue to be compromised merely to support the 
proliferation of any species of wildlife or natural resource.
Rural Community Issues
    Boundary County consists of a total land area of approximately 
810,572 acres comprised of 495,219 acres (61 percent) Federal land; 
107,267 (13.2 percent) acres state land; and 208,056 acres (25.6 
percent) privately owned land. Roughly 90 percent of the Federal 
property within Boundary County is bound by numerous restrictions and 
road closures imposed upon it because of the Endangered Species Act 
(ESA), recommended wilderness/road-less rule, the lack funding for road 
maintenance, and the lack funding for timber harvest administration, 
etc. Approximately 50,000 acres of Federal land remains available with 
limited access for conventional forest management to supply our natural 
resource driven economy.
    Boundary County's economic vitality is dependent upon the timber 
industry as it has been for the last 100 years. There is no shortage of 
timber resources as our forests continue to produce trees, and wildlife 
habitat is abundant. However, much of this timber is aging to the point 
of over-maturing. Please understand that even though the timber in our 
forest is renewable it still has a maximum life span. Much like a 
farmer's crop, there comes the day that it is time for harvest. Delay 
will only promote loss and quality defects in the resource. The longer 
the delay, the more dramatic the damage will be. Vast areas of our 
forest suffer the effects of the lack of management through 
conscientious harvest.
    My county at one time had, at minimum, seven saw mills of varying 
sizes that provided employees with a family wage job. We are now down 
to two mills, one large and one medium. The volume of timber provided 
to these has steadily decreased as the years have gone by.
    The forest district prior to 1990 averaged a harvest volume of 38.8 
mmbf per year. Then, 1991 through 2001, harvest volumes reduced to 19.8 
mmbf per year and nearly all the planned projects were appealed by non-
governmental special interest groups. During the time frame of 2001 to 
2010 the district averaged 14.4 mmbf and most of the projects were 
appealed and several were litigated. This is merely a snapshot of how 
much influence the courts have in forest management. Due to litigation, 
the courts have essentially been placed into the position of making 
critical management determinations regarding our national forests. 
Special interest groups currently hold the health of our forest for 
ransom.
    In the current 5-year plan, within Boundary County the USFS has 
increased the harvest targets, from the levels of the recent past, to 
approximately 20 million board feet (mmbf) per year. Largely due to 
efforts of the state of Idaho, timber industry advocates, the Kootenai 
Tribe of Idaho, and local collaborative partners such as the Kootenai 
Valley Resource Initiative. The Community Forest Landscape Restoration 
Act designation (CFLRA) funding is also a significant attributing 
factor. This volume of harvest also represents less than 25 percent of 
the harvested timber supplying our local mills. However, the forest 
growth volumes continue to increase by several times beyond the 
targeted harvest amount.
    Areas of blown down timber consisting of millions of board feet of 
timber are being left to waste. Ageing timber is becoming more and more 
susceptible to disease, insect infestation and weather damage. All of 
these contribute to the overwhelming threat and likelihood of 
catastrophic wild fire. The overwhelming majority of the National 
Forest in Boundary County is identified by the Idaho Department of 
Lands, fire hazards assessment as being at a high risk of wildfire. See 
attached maps. Simply put, instead of benefiting from timber harvest, 
the USFS spends countless millions for wild fire suppression while the 
habitat is suffering from the effects.
[GRAPHIC] [TIFF OMITTED] T9957.001

                       .epsBOUNDARY COUNTY, IDAHO
[GRAPHIC] [TIFF OMITTED] T9957.002

    .epsMost of the roads that I drove in years past have been closed 
or gated. My community does not hold any animosity toward the listing 
of any wildlife species, but, they do take offense to the restrictions 
that come with it. These restrictions have been created by agency 
rules, litigation through the courts, the threats of litigation or from 
antiquated science--science that is tagged as the ``best science 
available.''
    The counties of the state of Idaho have continually tried to 
correct and protect access to our Federal Lands, but ultimately any 
change in the Federal Land management must come from Congress. The 
agencies that have responsibility to manage land and animals are simply 
applying what has been handed to them by the rules and processes that 
are currently in place. Court actions have also added to the inability 
to manage our lands.
    I could have bored you with statistics, but they cannot explain the 
whole story. Now is the time to really look at positive changes to the 
Acts that guide how the Federal lands and wildlife are managed. I urge 
you to take the bull by the horns and make the necessary changes, for 
the sake of the citizens of my county, my state, and our country.
    In conclusion, I thank you for listening and for your consideration 
of these matters. It has been my distinct honor to be here and to speak 
before you today.

                                 ______
                                 

Questions Submitted for the Record by Representative Gohmert to LeAlan 
            Pinkerton, Commissioner, Boundary County, Idaho
    Question 1. What are some of the challenges on the Northern border 
that you believe are generally misunderstood by the public?

    Answer. Generally, the most prevalent misunderstanding by the 
public is the fact that the Border Patrol has statutory authority to 
enter onto and pass through private lands within 25 miles of the 
border, without warrant, for the purposes of patrolling the border.
    Also, the public believes that the Border Patrol has unfettered 
access to the border area throughout the National Forest. Yet, the 
Federal land and wildlife management agencies are currently restricting 
or eliminating public access along the Northern border.
    Another misconception by the public is that the Border Patrol wants 
roads in the National Forest closed to the public. To my knowledge, 
that has never been true. The public has always been a cherished force 
multiplier for law enforcement efforts. With more public use of an 
area, the more opportunity there is that someone will witness a cross 
border criminal event and report it to the authorities. However, 
recently the public has been hearing that since the Bog Creek road (5 
to 6 miles) is being reopened by the Border Patrol, there will be 
closures of an additional 25 miles of roads in the National Forest to 
meet road density standards of the grizzly bear recovery.

    Question 2. Mr. Pinkerton, the 2006 Memorandum of Understanding 
provides for access to Federal lands, including wilderness, when agents 
are in ``hot pursuit.'' However, if you are unable to patrol an area, 
due to wilderness or endangered species restrictions aren't we giving 
cartels a head start? Is there a more reasonable way to approach this?

    Answer. Yes, by removing patrol from the tool kit, the criminal 
element absolutely has the advantage, both strategically and 
tactically. With a small amount of counter-intelligence gathering, a 
criminal organization can make very effective movements with little 
fear of an encounter with law enforcement. They can stage caches of 
equipment, scout routes, and plan activities during hours with low law 
enforcement presence. Just to name a few.
    It is important to remember that ``Wilderness'' and a ``Multiple 
Use Forest'' are significantly different. Wilderness in general is 
primitive, lacking roads and void of infrastructure. Motorized or 
mechanical access is most often impossible and strictly prohibited. 
Routine patrolling in a wilderness area is not authorized by the 2006 
memorandum. Along the Northern border it is mountainous and mostly 
timbered. If there is no road, there is no effective means to pursue 
via a vehicle. In rare cases, there are possibilities to continue a hot 
pursuit on an ATV or motorcycle, but even those modes of transportation 
would be capable in very few instances.
    In a Multiple Use Forest, roads are prevalent and vehicular access 
can be made with ease. However, with road closures due to the sensitive 
wildlife recovery efforts, vast areas of the border cannot be 
effectively patrolled, once again giving advantage to the criminal 
element.
    Therefore, the most practical approach is to give law enforcement 
agents the access they need to perform their mandatory function using 
the existing roads within close proximities to the border--without trip 
restriction restraints.

    Question 3. How have regulations on timber harvest impacted your 
county's ability to provide critical services?

    Answer. With the reduction of timber harvest volumes our county has 
experienced the loss of numerous saw mills over the past couple of 
decades. As a result many family wage jobs no longer exist in the 
county job market. Young people most often leave the area after 
graduation from high school in search of jobs that can provide them 
with financial opportunities.
    Our county does not have any public transportation. All the fire 
and ambulance services operate as volunteer or on call entities. Even 
our county jail has been unable to expand to keep up with the needs of 
the community.

    Question 4. If your community were allowed to resume responsible 
timber harvest, would you need forest funds from the Federal 
Government? What does the unpredictability of Federal funds do to your 
ability to strategically budget in your county?

    Answer. With an ample amount of timber harvest, our county would 
eventually be able to do without forest funds from the Federal 
Government. Unfortunately, it would take some time before that would be 
possible. Most of the needed infrastructure that once existed here is 
gone. As saw mills were closed, the equipment was sold off and moved 
from the area. It would take years for the market to drive the return 
of the costly modern specialized equipment, and even more time to get 
these large industrial establishments built.
    The unpredictability of Federal funds has a significant adverse 
effect on our county being able to budget accordingly. Many of our 
departments must continue to consider how they would operate if the 
funds come late or do not come at all. Numerous times employee 
positions have gone unfilled or delayed for extended periods since the 
funding could not be counted on in a timely fashion. County road 
construction projects have been pushed back or eliminated because of 
the budgeting restraints. These are just a few examples of a long list 
of budgeting predicaments created by the unpredictability of the 
Federal funding.

                                 ______
                                 

    Mr. Gohmert. Commissioner, thank you very much.
    At this time, Ms. Walden, you are recognized for 5 minutes.

STATEMENT OF NAN STOCKHOLM WALDEN, VICE PRESIDENT AND COUNSEL, 
  FARMERS INVESTMENT COMPANY AND GREEN VALLEY PECAN COMPANY, 
                       SAHUARITA, ARIZONA

    Ms. Walden. Thank you, Chairman Gohmert, Ranking Member 
Dingell, and committee members. On behalf of Farmers Investment 
Company (FICO) and the Green Valley Pecan Company, I appreciate 
the opportunity to address you today on public lands issues in 
the vicinity of the border.
    I am happy to be associated with the hard-working farmers 
and ranchers that are here with me at the table. Thanks to them 
and us, I might add, we have the cheapest and safest food 
supply in the world, and we work hard at it.
    FICO is a major agricultural enterprise founded by my 
husband's father, Keith Walden, almost 75 years ago. Today my 
husband, Dick, is President and CEO. I am General Counsel, and 
both our children, the third generation of Waldens, are active 
in the company. We employ 260 permanent workers, many of whom 
are also second- and third-generation employees for us, mostly 
of Mexican-American descent. Spanish is the chosen language in 
our plant and on our farm; and we do hire some additional 
workers during the harvest season, usually 50 to 60, which are 
integral to our operation.
    We are the largest integrated grower and processor of 
pecans in the world. Our pecans are known worldwide for their 
quality. The FICO headquarters is located just over 40 miles 
north of the border, and our home ranch is just less than 30 
miles from the border. We have a horse and cattle operation 
with 160 acres of private land and a 6,000-acre state grazing 
lease. Our proximity to the border gives us firsthand 
experience with border security challenges, and we know the 
difficult job the Border Patrol and other agencies are tasked 
to undertake.
    Like many Arizonans, we also have a special relationship 
with our land. Both our business and ranch are located near the 
Coronado National Forest, a major recreation venue for the 
residents of Tucson, Green Valley, and the surrounding areas. I 
had some brochures passed out so you could see how beautiful 
this land is, and how historic.
    I want to point out that, in our West, our public lands are 
significant economy drivers. Current Border Patrol strategies, 
particularly permanent checkpoints, are adversely impacting 
rural communities and public lands.
    I agree with the Chiltons, that we would like to see the 
border secured at the international border, but border security 
legislation should not compromise the protection of civil 
rights and quality of life for those living in the border 
region. After all, Mexico is our third-largest trading partner. 
We buy pecans, for example, from growers in Mexico; our 
employees travel back and forth to do this, my husband travels 
back and forth to do this. This is good for Mexico and it is 
good for the United States.
    And finally, comprehensive immigration reform is essential 
and inexorably linked to border security.
    I think that any examination of border security issues 
related to public lands must consider the economic value that 
it adds. For example, in our area, tourism spending generates 
$3.6 billion in economic activity annually, and employs over 
30,000 individuals in southern Arizona. Wildlife activities, 
including hunting and fishing alone, generate over $1 billion 
annually. While public safety is a paramount concern, we must 
also consider the economic consequences of legislation 
addressing border security. As you know, all too well, these 
are very complex, multi-layered issues.
    I mentioned our concern about permanent fixed checkpoints, 
which drive traffic into our farms, ranches, and communities. I 
have personally witnessed high-speed chases right through my 
front lawn--except we have gravel in Arizona, we don't have 
lawns--and it really is questionable, some of these chases and 
tactics undertaken by the Border Patrol in areas that are 
populated.
    That is not to say that we do not appreciate their efforts, 
but I think the rapid staffing up and, sometimes, lack of 
training for people have caused situations where we have Border 
Patrol lost on our property within a quarter-mile of the major 
freeway, or asking us for directions. So that needs to be 
considered, as well.
    My understanding and my experience is that we have an 
excellent ranch liaison, and that the relationship between the 
Border Patrol and public land managers has evolved into a very 
constructive and well-coordinated one, as Mr. Andrew described.
    I realize there is a perception by some that the Border 
Patrol is locked out of public lands. But I tell you, people 
who spend time on public lands in our area find this assertion 
amazing, because we see the Border Patrol everywhere on a daily 
basis, and in our communities.
    I also want to say that the Homeland Security enjoys what 
is characterized as ``the broadest waiver of law in American 
history,'' that Congresswoman Dingell referred to. We are very 
concerned about some of the pending bills in the House that 
would unilaterally waive laws, and deny those living in the 
border region protections of those laws. And our employees have 
suffered, as a result of some of those laws.
    I would be happy to answer any additional questions. Thank 
you.
    [The prepared statement of Ms. Walden follows:]
Prepared Statement of Nan Stockholm Walden, Vice President and Counsel 
  for Farmers Investment Co. (FICO), Farmers Water Co. (FWC), and The 
             Green Valley Pecan Company, Sahuarita, Arizona

                            i. introduction
    Chair Gohmert, Ranking Member Dingell, members of the committee, I 
am Nan Stockholm Walden, Vice President and Counsel for Farmers 
Investment Co. (FICO), Farmers Water Co. (FWC) and The Green Valley 
Pecan Company in Sahuarita, Arizona. I appreciate the opportunity to 
address the committee on public lands issues in the vicinity of the 
U.S./Mexico border.
    FICO is a major agricultural enterprise founded by my husband's 
father R. Keith Walden almost 75 years ago. Today, my husband, Dick 
Walden, who is the President and CEO of the company, and the third 
generation of Waldens, including daughter Deborah and son Rich, are 
active in the company.
    We employ 260 permanent workers, many of whom also are second and 
third generation FICO employees, whom we consider family, as well. 
During harvest season, we hire an additional 50 to 60 workers, making 
us one of the larger employers in Pima County.
    FICO is the largest integrated grower and processor of pecans in 
the world. We are also the largest producer of organic pecans. Research 
has shown that pecans are rich in antioxidants, can lower harmful LDL 
cholesterol, and contain 19 essential vitamins and minerals, as well as 
being an excellent source of protein. FICO sells pecans to food 
manufacturers including makers of cereals, health bars, ice creams, 
candies and bakery goods, to retail chains that package our nuts under 
their label, and directly to customers--both here and abroad. We also 
buy pecans from other growers in the United States and Mexico.
    FICO owns approximately 11,000 acres in southern Arizona, of which 
about 7,500 acres are irrigated and under cultivation for pecan nuts, a 
tree native to North America.
    The FICO headquarters is located just over 40 miles north of the 
border, and our home ranch is just less than 30 miles. Our property in 
Amado is a horse and cattle operation that includes 160 acres of 
private land and a 6,000-acre state grazing lease. We are well aware of 
the importance of public lands to agriculture and ranching.
    Consequently, we have the firsthand experience with border security 
challenges, and we know the difficult job the Border Patrol is tasked 
to undertake. The Border Patrol has responded to calls on both our farm 
and our ranch. I might add that our Border Patrol Tucson Sector Ranch 
Liaison, Jake Stukenberg, does an excellent job helping us cooperate 
with Border Patrol.
    Like many Arizonans, we have a special relationship with our public 
lands. Both our business and ranch are located near the Coronado 
National Forest, a major recreation venue for residents of Tucson, 
Green Valley, and the surrounding area. I have ridden horses, and hiked 
on the Coronado and have visited many of the other public lands in 
southern Arizona under the management of the National Park Service, the 
U.S. Fish and Wildlife Service and the Bureau of Land Management.
    I also serve on the Board of Directors of the National Immigration 
Forum, a non-partisan organization that works with diverse 
constituencies especially business, faith and law enforcement leaders 
advocating for immigrants and responsible immigration policy. This 
policy must reflect immigrants' contributions to our Nation's history, 
culture and growth, and their continuing contributions to our country's 
economy, especially in the agriculture and ranching sectors in rural 
communities.

    The views I am offering today are informed by this context.
               ii. economic contribution of public lands
    Any examination of border security issues related to public lands 
must consider their economic value to rural communities. In southern 
Arizona, our public lands are significant regional economic 
contributors. For example, according to the Arizona Office of Tourism, 
tourism spending generates $3.6 billion in economic activity annually 
and employs over 30,000 individuals in southern Arizona.\1\ In 2012, a 
local tourism agency found that our natural environment is the number 
one reason visitors come to our community.\2\
---------------------------------------------------------------------------
    \1\ Arizona Travel Impacts 1998-2014p. (2015, June). Retrieved from 
https://tourism.az.gov/sites/default/files/documents/files/
AZImp14pFinal_1.pdf. Report prepared by Dean Runyon & Associates.
    \2\ DeRaad, B. (2/2014). Visit Tucson Memo To Larry Hecker, 
Chairman, Pima County Bond Advisory Committee. (Memorandum). Tucson, 
AZ. http://webcms.pima.gov/common/pages/UserFile.aspx?fileId=78818.
---------------------------------------------------------------------------
    Public land uses related to wildlife activity are also significant 
in our region. In 2011, watchable wildlife recreation activities, such 
as birding, generated over $702 million in economic activity and 
supports in excess of 3,300 jobs in the four county border region.\3\ 
According to the most recent data available from the Arizona Game and 
Fish Department, hunting and fish add over $324 million in economic 
activity and almost 2,300 jobs in this same four county border 
region.\4\
---------------------------------------------------------------------------
    \3\ Tucson Audubon Society: The Economic Contributions of Wildlife 
Viewing to the Arizona Economy: A County-Level Analysis. 2013. 
Southwick Associates /Arizona Game & Fish Department. http://
www.tucsonaudubon.org/images/stories/News/TAS-AZ-WildlifeWatching-
Analysis-2011-130718.pdf.
    \4\ Silberman, J., Ph.D. (n.d.). Economic Importance of Hunting and 
Fishing (Arizona Game and Fish Department/Arizona State University). 
https://www.azgfd.com/PortalImages/files/wildlife/
FISHING_HUNTING%20Report.pdf.
---------------------------------------------------------------------------
    Moreover, southern Arizona has a legacy of ranchers working 
collaboratively with other stakeholders to address common challenges. 
These examples include collaborative efforts such as the Malpai 
Borderlands Group and the Altar Valley Conservation Alliance. Both of 
these groups work with land management agencies and the Border Patrol 
to maintain working landscapes, including improving grazing lands, 
while also protecting wildlife, managing fire to benefit the landscape, 
dealing with drought and erosion control and other challenges.
    While public safety is of paramount concern, we must also consider 
the economic consequences of our actions.
 iii. impact of permanent border checkpoints on rural communities and 
                              public lands
    FICO has long-standing concerns about the effectiveness of 
permanent Border Patrol checkpoints and their impacts on the 
surrounding community including nearby public lands. We met often with 
former Rep. Jim Kolbe, and I served on Rep. Gabrielle Giffords' 
Citizens' Advisory Committee on Checkpoints.
    Those of us that live in areas surrounding the checkpoint have, for 
years, been exposed to the degradation of our public safety because of 
them--high-speed car chases through our neighborhoods, gunshot victims 
and the like. I have experienced a high-speed chase by Border Patrol 
through my front driveway in Sahuarita, AZ that I am sure would have 
killed an employee or me had I not been in my home office at the time. 
The result was that a couple and two young terrified kids were 
apprehended, but there were no weapons or drugs found in their car.
    My neighbor at the Agua Linda Ranch was pushed down on the ground 
by Border Patrol agents around 10 p.m. one night when he was near his 
ranch house, changing the irrigation set on his vegetables, dressed in 
his pajamas, despite the fact that he identified himself as the owner 
of the property.
    Our neighbors and ourselves have had many similar experiences of 
livestock buzzed by helicopters flying too low over pastures, gates 
left open, fences cut and crossers asked to dump all their belongings 
on our property, which were left there, not confiscated. We have had 
numerous examples of Border Patrol agents being unfamiliar or lost on 
our ranch property, which is within a quarter mile of the major North/
South Interstate, I-19.
    A senior member of our team who happens to be Mexican-American was 
stopped by the Border Patrol 40 miles north of the border on her way 
from her home to work. She was driving a late model SUV with two young 
daughters in the back in car seats. When she asked why she was stopped, 
the Border Patrol Officer replied, ``You fit the profile.''
    ``What profile is that? '' she asked.
    ``Driving a late model SUV and obeying the traffic laws and speed 
limit,'' was the reply.
    Sharing these stories with you does not at all mean we do not 
appreciate the efforts of the Border Patrol. Rather, proper training is 
crucial to Border Patrol agents working successfully with rural 
communities. We have noted that because Border Patrol has significantly 
increased staffing levels in recent years, there is a lot of 
transferring agents from one sector to another, high rates of turnover, 
and lack of uniform training.
    The Border Patrol strategy, ``Defense in Depth,'' calls for 
retreating 30 or so miles from the border with fixed checkpoints. This 
strategy has us living in a No Man's Land and underestimates the 
intelligence of the enemy we are fighting--the drug and human 
smugglers. The assumption that these criminals will not circumvent 
fixed checkpoints and traverse through our neighborhoods, our ranches, 
our communities and our public lands is not based in reality.

    There have been several in-depth examinations of the effectiveness 
and impacts of the Border Patrols checkpoint strategy.

        GAO, August 2009 \5\--This GAO report confirmed that the Border 
        Patrol was proceeding without adequate information on the 
        effectiveness of fixed checkpoints and their adverse impacts on 
        the public safety and quality of life of southern Arizona. GAO 
        found that there were ``information gaps and reporting issues'' 
        because of insufficient data, the agency was unable to compare 
        the cost effectiveness of checkpoints to other strategies, and 
        the Border Patrol had misrepresented its checkpoint 
        performance. It also found that of all the apprehensions of 
        illegal immigrants in the vicinity of the I-19 checkpoint in a 
        certain fiscal year, ``94 percent occurred in the areas 
        surrounding the checkpoint, while only 6 percent took place at 
        the checkpoint itself.'' In other words, these statistics make 
        it clear that the checkpoint was driving criminal activities 
        into the areas surrounding the checkpoint.
---------------------------------------------------------------------------
    \5\ United States, Government Accountability Office (GAO). (2009). 
Checkpoints Contribute to Border Patrol's Mission, but More Consistent 
Data Collection and Performance Measurement Could Improve Effectiveness 
(GAO-09-824). Washington, District of Columbia.

        Udall Center for Studies in Public Policy, the University of 
        Arizona, December 2012 \6\--After undertaking a detailed 
        statistical analysis this study found that the I-19 checkpoint 
        is having a significant impact on the property values of the 
        community surrounding this facility. This means that rural 
        communities in the vicinity of the checkpoint, like Tubac, 
        Arizona, are bearing a disproportionate economic burden for 
        this border security tactic.
---------------------------------------------------------------------------
    \6\ Gans, J., M.S., M.P. (December 2012). The Border Patrol 
Checkpoint on Interstate 19 in Southern Arizona: A Case Study of 
Impacts on Residential Real Estate (Rep.). Udall Center for Studies in 
Public Policy, The University of Arizona.

        Tubac is in a rural area 20 miles from the border. It has 
        become a major draw for tourists and businesses due to its 
        historical, cultural, artistic and recreational facilities. Yet 
        we know of many visitors and potential residents who have 
        canceled vacations or real estate purchases due to concerns 
        about the permanent checkpoint and appearance of extreme 
---------------------------------------------------------------------------
        militarism in the area.

        GAO, December 2012 \7\--This report found, among other things, 
        that because of data limitations the Border Patrol is unable to 
        compare the effectiveness how resources are deployed among 
        sectors. Each sector collects and reports the data differently 
        thus precluding comparison. Policymakers and Border Patrol 
        leadership are unable to effectively assess the effectiveness 
        of tactics such as the checkpoint.
---------------------------------------------------------------------------
    \7\ Government Accountability Office (GAO). (2012). Key Elements of 
New Strategic Plan Not Yet in Place to Inform Border Security Status 
and Resource Needs (GAO-13-25). Washington, District of Columbia.

    FICO believes that fixed permanent checkpoints threaten public 
safety in addition to resulting in significant economic consequences. 
It is clear in our view that they drive illegal activities away from 
the checkpoint into surrounding areas including Federal public lands. 
Any policy review of border security issues related to public lands 
must consider the impacts of these checkpoints.
       iv. legislation regarding border security and public lands
    I would now like to turn to legislative efforts to address border 
security issues related to public lands. We are blessed in Arizona with 
magnificent national forests, national monuments, national wildlife 
refuges and historic sites at or near the U.S.-Mexico border. As noted 
earlier, these public lands are vitally important to our quality of 
life, recreation, and the local economy.
    The very significant increase in Border Patrol agents assigned to 
the Southwest has led to many Border Patrol agents now working and even 
living on these public lands.
    My understanding is that the relationship between the Border Patrol 
and the public land management agencies has evolved into a very 
constructive and well-coordinated relationship. The public land 
agencies have law enforcement staff with a deep knowledge of the 
landscape routinely work with Border Patrol agents. Land managers 
acknowledge the need for Border Patrol presence to patrol these lands 
and have developed both national and local procedures and processes 
that respect the Border Patrol's needs. Border Patrol agents may always 
use motorized vehicles in the interests of assuring public safety and 
national security.
    The General Accountability Office (GAO) has undertaken studies that 
have examined the intersection of border security and environmental 
law. Not surprisingly and especially in the earlier years of increased 
Border Patrol presence, these reports documented some delays in border 
security infrastructure projects as the result of working with land 
management agencies. However, despite such incidents, ``most patrol 
agents-in-charge told us that border security status of their 
jurisdictions had not been affected by land management laws. Instead, 
factors other than access delays or restrictions, such as the 
remoteness and ruggedness of the terrain or dense vegetation, have had 
the greatest effect on their abilities to achieve or maintain 
operational control.'' \8\ For example, GAO testimony presented in 
2011, relying on two 2010 GAO reports, noted that patrol agents-in-
charge at 22 of the 26 stations on the Southwest border with Federal 
lands in their areas reported that no portions of these stations' 
jurisdictions have had their border security status . . . downgraded as 
a result of land management laws.'' \9\
---------------------------------------------------------------------------
    \8\ ``Southwest Border: Border Patrol Operations on Federal 
Lands,'' Statement of Anu K. Mittal, Director, Natural Resources and 
Environment, U.S. Government Accountability Office, April 15, 2011, p. 
16.
    \9\ Id. P. 17.
---------------------------------------------------------------------------
    GAO also noted examples of Federal interagency coordination, which 
they found strengthened border security. Some examples of this include 
the placement of the forward operating bases on Organ Pipe Cactus 
National Monument and Cabeza Prieta National Wildlife Refuge and 
improvements to Forest Service roads to facilitate border security 
operations on the Coronado National Forest.\10\
---------------------------------------------------------------------------
    \10\ ``Border Security: Additional Actions Needed to Better Ensure 
a Coordinated Federal Response to Illegal Activity on Federal Lands,'' 
November 18, 2010. Memorandum from Stephen R. Vina & Todd Tatelman, 
Legislative Attorneys, Am. Law Division, Cong. Research Serv., on 
Section 102 of H.R. 418, Waiver of Laws Necessary for Improvement of 
Barriers at Borders, (Feb. 9, 2005).
---------------------------------------------------------------------------
    I realize that there is a perception by some that the Border Patrol 
is ``locked out'' of public lands. People who spend time on public 
lands in southern Arizona find this assertion rather amazing, as there 
is considerable evidence of the Border Patrol's presence, including 
regular patrols and law enforcement actions. It is a fact that CBP 
already has access on all Federal lands.\11\ Several thousand Border 
Patrol agents currently patrol public lands, the Tohono O'odham Nation, 
and the Barry Goldwater range in southern Arizona. There are Forward 
Operating Bases where agents live and work on Organ Pipe Cactus 
National Monument (95 percent wilderness) and Cabeza Prieta National 
Wildlife Refuge (93 percent wilderness). Here are some of the 
statements Border Patrol agents have made in relationship to this 
issue:
---------------------------------------------------------------------------
    \11\ This includes wilderness areas. ``Per the 2006 MOU [Memorandum 
of Understanding], Border Patrol agents have the authority at any time 
to conduct motorized off-road pursuit in the event of exigency/
emergency involving human life, health, safety of persons within the 
area, or posing a threat to national security.'' Statement for the 
Record, U.S. Customs and Border Protection, before the House Committee 
on Natural Resources, Subcommittee on National Parks, Forests, and 
Public Lands, `National Security and Federal Lands Protection Act,' '' 
Department of Homeland Security, July 8, 2011.

        ``But claiming agents would have to stop at wilderness 
        designated areas or go around them is completely wrong,'' said 
        Border Patrol spokesman Ramiro Cordero. ``Border Patrol is 
        already permitted to monitor and enforce within wilderness 
---------------------------------------------------------------------------
        areas,'' Cordero confirmed Tuesday.

        ``We're still allowed to patrol anywhere . . . if there's any 
        danger or pursuit; we're not going to stop. There's no truth 
        that we cannot go in (to wilderness areas). The Federal 
        authority gives us the authority to go anywhere,'' Cordero 
        said.\12\
---------------------------------------------------------------------------
    \12\ ``Wilderness impact on border security debated,'' Las Cruces 
Sun News, May 11, 2010.

    Or more recently, the then Deputy Chief of the Border Patrol (now 
Acting Chief) had this to say in response to questions posed in the 
---------------------------------------------------------------------------
Senate Homeland Security and Government Affairs Committee:

        Senator Tester: Does the Border Patrol have access all along 
        the border--on public and private lands?

        Deputy Chief Vitiello: We're on the border everywhere--both 
        private and public lands.

        Senator Tester: What about Glacier National Park?

        Deputy Chief Vitiello: Same answer, no particular problems.

        Senator Tester: I don't want to put words in your mouth, but I 
        do want to ask--do you need anything special to work in these 
        areas? Any special tools? \13\
---------------------------------------------------------------------------
    \13\ Senate Homeland Security and Government Affairs Committee, 
Hearing on Border Fencing, Infrastructure and Force Multipliers, May 
13, 2015; at http://www.hsgac.senate.gov/hearings/securing-the-border-
fencing-infrastructure-and-technology-force-multipliers, 1:25:55-1:28-
:30.

---------------------------------------------------------------------------
        Deputy Chief Vitiello: No, no additional tools.

    I also want to remind the subcommittee that the Department of 
Homeland Security currently enjoys what the Congressional Research 
Service has characterized as the ``broadest waiver of law in American 
history.'' \14\ That authority is still in effect and is still being 
used in Arizona. That provision has no sunset provision.
---------------------------------------------------------------------------
    \14\ Memorandum from Stephen R. Vina & Todd Tatelman, Legislative 
Attorneys, Am. Law Division, Cong. Research Serv., on Section 102 of 
H.R. 418, Waiver of Laws Necessary for Improvement of Barriers at 
Borders, (Feb. 9, 2005).
---------------------------------------------------------------------------
    However, despite the Border Patrol's statements and their lack of 
advocacy for additional authority to waive laws, there are two bills 
pending in the House that would unilaterally waive laws. H.R. 1412, the 
misnamed Arizona Borderlands Protection and Preservation Act (which, 
among other things, applies to a portion of southeast California and 
all of Nevada), eliminates the rule of law for all actions of Customs 
and Border Protection on public lands. The bill's stated purpose is to 
``give'' access to U.S. Customs and Border Protection (CBP) on Federal 
lands ``notwithstanding any other provision of law.'' In other words, 
these law enforcement agencies will be given unprecedented police 
powers to stop ``all'' illegal entries. The bill exempts state and 
private lands, which would still enjoy implementation of the full 
panoply of laws while public lands would be relegated to a secondary 
position in which Americans living hundreds of miles from the border 
would not have the same Federal protection of their civil rights and 
quality of life that exist elsewhere in the country.
    H.R. 399, also pending in the House, similarly waives laws--in this 
case, specifically, the Administrative Procedures Act, the National 
Environmental Policy Act, the Wilderness Act, the Endangered Species 
Act, the National Park Service Organic Act, the National Historic 
Preservation Act, the Antiquities Act, the Arizona Desert Wilderness 
Act, the National Wildlife Refuge System Administration Act and several 
other laws--on public lands within 100 miles of the U.S. borders with 
Mexico and Canada. Again, this proposal is ill advised, unwarranted and 
not sought by the very agency it purports to assist. Rather, it appears 
to be a very specific assault on public lands and environmental laws.
    While waiver of laws to protect our Nation's citizens, public 
lands, wildlife, and historic and cultural treasures could, in my view, 
seldom if ever be justified, it is especially inappropriate at this 
point when the number of apprehensions of unlawful border crossers has 
declined to the lowest level in 40 years.\15\ The Fiscal Year 2015 
Customs and Border Protection Border Report found Southwest border 
apprehensions had declined 30 percent in the last year and almost 80 
percent below its peak in Fiscal Year 2000.\16\ A March 2016 GAO study 
also found that the overall effectiveness rate of the Border Patrol 
increased in eight of the nine sectors on the Southwest border--
including a 20 percentage overall effectiveness rate increase in the 
Tucson sector--between Fiscal Years 2006 and 2011.\17\
---------------------------------------------------------------------------
    \15\ American Immigration Lawyers Association, What's Going on with 
Immigration Enforcement? Fewer Border Crossers, More Asylum Seekers, 23 
December 2015.
    \16\ U.S. Customs and Border Protection. Fiscal Year 2015 CBP 
Border Security Report. 22 December 2015. https://www.dhs.gov/sites/
default/files/publications/CBP%20FY15%20Border%20 Security%20Report_12-
21_0.pdf.
    \17\ Government Accountability Office (GAO). Southwest Border 
Security: Additional Actions Needed to Assess Resource Deployment and 
Progress. GAO-16-465T. 1 March 2016. http://www.gao.gov/products/GAO-
16-465T.
---------------------------------------------------------------------------
    DHS continues to deport individuals at significant levels following 
several record-breaking years. In Fiscal Year 2015, ICE announced it 
had deported 235,435 individuals. As of September 2015, the Obama 
administration had deported more than 2.1 million individuals.\18\ This 
pace far surpasses the 1.57 million individuals deported during the 8 
years President George W. Bush was in office.\19\
---------------------------------------------------------------------------
    \18\ U.S. Immigration and Customs Enforcement. ICE Enforcement and 
Removal Operations Report Fiscal Year 2015. 22 December 2015. https://
www.ice.gov/sites/default/files/documents/Report/2016/
fy2015removalStats.pdf.
    \19\ O'Toole, Molly. ``Analysis: Obama Deportations Raise 
Immigration Policy Questions.'' Reuters. Thomson Reuters, 20 Sept. 
2011. http://www.reuters.com/article/2011/09/20/us-obama-immigration-
idUSTRE78J05720110920.
---------------------------------------------------------------------------
    In this body, H.R. 4303, the Border Security and Accountability Act 
of 2015, appears to be a more comprehensive approach. Among other 
things, this legislation requires the Secretary of Homeland Security to 
develop and implement a comprehensive border security strategy and plan 
to implement this strategy, invest in our ports of entries, consult 
with border communities as well as local and state law enforcement 
agencies from Southern border localities, and work with Mexico. It 
would also restore the full rule of law to our borderlands. This more 
comprehensive approach is worthy of consideration.
                  v. comprehensive immigration reform
    As longtime business owners who live and work within 30 to 40 miles 
of the border, I cannot emphasize enough the inexorable link between 
border security and comprehensive immigration reform.
    We understand the gravity of the border situation--the drug-
associated violence, human smuggling, and environmental impacts--as 
well as the impacts of some enforcement activities on our commerce and 
property values.
    We also know the effects of poorly crafted or implemented Federal 
or state policies that create a climate of fear and discrimination 
among the civilian population--business and commerce decline and 
families suffer.
    That makes your job all the more challenging and important--and we 
thank you for hearing from the people like us who live this situation 
daily, and for those of you who have visited the border and talked to 
residents and those who work and travel on both sides of the line.
    In 2008, I testified before the House Subcommittee on Homeland 
Security, regarding the importance of comprehensive immigration reform. 
Much of what we told you in 2008 remains a problem today.
    We must remember and appreciate the contributions of our legal 
immigrants and those in our area who are of Mexican-American descent, 
without whom agriculture and ranching could not flourish in the United 
States. The health care industry, restaurant and hospitality industry, 
construction, mining and many other sectors depend on continued renewal 
of both entry level and skilled labor from other countries.
    Mexico is our third-largest trading partner, behind Canada and 
China. The U.S. and Mexican economies are interdependent. As Mexico 
strengthens its institutions and economy, the benefits flow into our 
country, and there is less pressure for illegal migration.
    In our experience, the paths for both permanent and temporary legal 
workers in the United States are long, crooked and in some cases dead-
ends. Since 1986 we have not uniformly enforced immigration laws, nor 
have we adequately dealt with ways to efficiently permit temporary 
workers, and provide a timely path to citizenship for those who merit 
it. Agricultural and other visa programs are impractical and 
unworkable.
    Polls show that most Americans favor comprehensive immigration 
reform, including a path to citizenship and that these levels of 
support have remained constant for more than a decade.\20\
---------------------------------------------------------------------------
    \20\ In U.S., 65% Favor Path to Citizenship for Illegal Immigrants. 
(2015, August 12). Retrieved April 26, 2016, from http://
www.gallup.com/poll/184577/favor-path-citizenship-illegal-
immigrants.aspx.
---------------------------------------------------------------------------
    National security experts under both Republican and Democratic 
administrations,\21\ assert that the most effective border security 
strategy is comprehensive immigration reform. We must fix the 
immigration system by providing legal avenues for workers to enter the 
United States when needed and allow families to reunify. The 1986 
Immigration Reform and Control Act, which resolved the status of most 
undocumented immigrants at the time, did not adequately address the 
demand for legal immigrant labor. Because there continues to be a 
demand for immigrant labor, individuals from other countries who seek a 
better life are drawn to our Nation that is full of opportunity.
---------------------------------------------------------------------------
    \21\ Molnar, P. (2013, April 8). Panetta Lecture Series: Border 
security experts say immigration reform is vital. Retrieved April 26, 
2016, from http://www.santacruzsentinel.com/article/zz/20130408/NEWS/
130408557.
---------------------------------------------------------------------------
    By providing more avenues for these individuals to come to the 
United States through legal means, law enforcement and border officials 
will be able to spend fewer resources toward immigrants migrating for 
economic reasons and more resources toward genuine criminal and 
terrorist threats that could harm our communities. Smart enforcement 
and border security, coupled with comprehensive immigration reforms, 
can improve security at the border.
                             vi. conclusion
    We appreciate the professional efforts of the Border Patrol and we 
certainly believe in securing our Nation's borders, preferably at the 
border or in the immediate vicinity.
    We also value our Nation's public lands and understand the 
significant contribution they make to our local and national economy as 
well as to quality of life. Protection of our public lands is part of 
protecting our national security; the two are certainly not in 
conflict.
    We urge Congress to stop trying to achieve the infeasible--100 
percent apprehension of all border crossers--and to cease blaming 
public land managers and environmental laws for border security 
problems.
    Rather, Congress should enact comprehensive immigration reform that 
addresses our society's need for lawful immigrants, and, at the same 
time protects and enhances the public lands our growing population 
needs for recreational, economic and spiritual needs.

                                 ______
                                 

 Questions Submitted for the Record by Representative Grijalva to Nan 
   Stockholm Walden, Vice President and Counsel, Farmers Investment 
                Company, and Green Valley Pecan Company
    Question 1. In your testimonies, both you and Mrs. Chilton were 
quite critical of the Border Patrol's ``Defense in Depth'' strategy and 
you both cite personal testimony. However, Mrs. Chilton appears to 
believe that a significant part of the reason for the ``Defense in 
Depth'' strategy, as opposed to a ``protect the border at the border'' 
strategy, is that the presence of public lands and environmental laws 
hinders the Border Patrol's ability to work at or near the border.
    You appear to have a good relationship with the Border Patrol Ranch 
Liaison in your area and have clearly talked with other Border Patrol 
agents. In conversations with them, have you ever heard it suggested 
that the reason they are not focusing their resources and personnel at 
the border is because of public lands and associated laws?

    Answer. In numerous conversations with Border Patrol agents they 
have never suggested to me that laws regarding public lands hinder 
their access.
    Moreover, the 2009 GAO study I refer to in my testimony documents 
that Border Patrol has major ``information gaps and reporting issues'' 
which causes Border Patrol to misrepresent the effectiveness of 
checkpoint performance compared to other strategies.

    Question 2. Can you give a specific example of how the I-19 
checkpoint has adversely affected the local economy in your area?

    Answer. I know from talking to realtors and merchants in the Tubac 
area, south of the checkpoint that visitors and potential buyers of 
homes and ranches complain about having to traverse the checkpoint 
daily. There are often traffic backups there. One realtor told me that 
a number of his buyers have actually signed a contract to purchase a 
house, then rescinded it when they discovered the checkpoint was a 
permanent fixture they would have to drive through from Tubac or points 
south to reach the nearest hospital, drugstore or dry cleaners.
    Other economic impacts on property values and businesses have been 
documented in the Udall Center/University of Arizona study by J. Gans, 
(December 2012) The Border Patrol Checkpoint on Interstate 19 in 
Sourthern Arizona: A Case Study of Impacts on Residential Real Estate.

                                 ______
                                 

    Mr. Gohmert. Thank you, Ms. Walden. At this time we will 
begin questioning. And I will hold my questions and first 
recognize the gentleman from Idaho, Mr. Labrador, for 5 
minutes.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here today.
    The balancing of interests between the mission of our 
Federal land management agencies and the critical mission of 
the Department of Homeland Security in securing our borders is 
a topic that is all-too-often ignored. In fact, it is something 
that some people do not even think about.
    I have to be honest. I practiced immigration law for over 
10 years. When I first came to Congress, somebody told me that 
we were having a problem at the border with allowing Border 
Patrol agents from pursuing suspects on Federal land and that, 
in fact, many people would go through the Federal land because 
they knew the Border Patrol agents would not follow them; I 
laughed out loud, literally laughed out loud. I said, ``That is 
impossible.'' After having practiced law for so many years, I 
had not even heard of this issue.
    There is no doubt that our borders are porous, and there is 
no doubt that Customs and Border Protection, and specifically 
the U.S. Border Patrol, is on the front line in harm's way. 
They are trying to keep watch over our Nation. This is not the 
appropriate setting to debate immigration policy, but we must 
remember that border security goes way beyond just illegal 
entrants.
    At the Northern border, in the state where I live, we have 
a lot of issues with trafficking of children, child 
pornography, and many other issues. It is not just about 
illegal immigration. It is our duty to ensure that the drugs, 
weapons, people, and materials that threaten our national 
security are intercepted and repealed.
    So, Commissioner Pinkerton, based on your experience, how 
secure is the Northern border today?
    Mr. Pinkerton. I would not consider it secure in any 
fashion. As a matter of fact, if you date back to the 1970s, it 
is probably somewhere in the same realm, as far as being 
secure. It is not secure, to answer.
    Mr. Labrador. In his testimony, Mr. Andrew spoke about 
agency collaboration and Memorandums of Understanding. Are you 
familiar with any MOUs between the Department of Homeland 
Security and the Department of the Interior agencies?
    Mr. Pinkerton. Yes, sir. It was signed in 2006 by all three 
agency secretaries.
    Mr. Labrador. And have those MOUs provided better 
coordination?
    Mr. Pinkerton. No, sir, not in my opinion. As a matter of 
fact, I believe it has been damaging to the mission of the 
Border Patrol. It has put the position of the Border Patrol in 
somewhat of a compromise, and----
    Mr. Labrador. How? How has it compromised the mission of 
the Border Patrol?
    Mr. Pinkerton. Well, sir, the Border Patrol is a law 
enforcement faction, and they have to run their operations 
based on law enforcement needs. The land management agencies, 
for the most part, are not. Sometimes the Border Patrol has to 
share sensitive law enforcement information with a biologist, 
so to speak, because of the restrictions on a road that may be 
back there.
    The cooperation among the agencies has been somewhat one-
sided against the Border Patrol, in my experience.
    Mr. Labrador. Your testimony references administrative, 
motorized trips through a grizzly bear recovery zone in 
northern Idaho. How is Border Patrol affected by the caps in 
administrative trips?
    Mr. Pinkerton. Well, I think the term itself is something 
that should bring your attention--``administrative.'' The trips 
behind these gates for the Border Patrol are not administrative 
in nature. An administrative trip would be for--let's say a 
biologist to go back there and check on a collar that fell off 
of a bear, or put batteries into something that they are using 
to gauge traffic for the animals, or something of that sort--
that is an administrative trip. For the Forest Service, to do a 
timber scale, or timber sale stand exam, so to speak. But for 
the Border Patrol, it is a matter of a tactic that they are 
needing. It is not administrative in nature. It could be a life 
and death situation of a matter of a few seconds.
    Mr. Labrador. Thank you. I am troubled, Mr. Andrew, by your 
statement that, ``Mitigation activities aimed at protecting the 
environment during border security deployment has had no impact 
on Border Patrol's ability to protect the border.'' Are you 
referring to the entire border when you make such a statement, 
or just the Southern border?
    Mr. Andrew. I think I was referring to it in general. There 
are, obviously, some issues that Mr. Pinkerton has pointed out 
that we need to work on. But in other areas, implementation of 
the MOU has been very----
    Mr. Labrador. What statistics or data can you provide to 
support that general claim?
    Mr. Andrew. Statistic? Well, I would use an example such an 
Organ Pipe, where we used the MOU to provide Border Patrol with 
road access. We met with them and asked them where they needed 
access. They mapped it out, and we marked the road so they 
would have that; and that includes in wilderness.
    So, it has worked well in some places. At Bog Creek in 
Idaho, it has been a challenge, to be honest. We are getting 
better at it. I think we are on the right track now. We have 
had some discussions here with Mr. Pinkerton that have been 
very educational for me.
    Mr. Labrador. Do you think Border Patrol agents are 
hampered by denied access to certain areas?
    Mr. Andrew. I hope not. It is not my intention. I work to 
assure that the Border Patrol has the access they need when 
they need it. I can't say that we are perfect with it, but I am 
very willing to work on making that better, wherever needed.
    Mr. Labrador. Thank you. I yield back.
    Mr. Gohmert. I thank the gentleman. At this time the 
gentlelady from Michigan, Mrs. Dingell, is recognized for 5 
minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Ms. Walden, as a representative of a border state, myself, 
I am sympathetic to the concerns that our witnesses have raised 
about ensuring safety and security along the border. However, 
important environmental laws do not need to be sacrificed in 
order to have Customs and Border Protection do its job.
    Unfortunately, they have been sacrificed in order to build 
a fence, and there have been consequences. Wildlife almost 
always migrate north to south when climates change, in order to 
find a more suitable environment depending on the climate 
shift. In an era of climate change, particularly in the U.S. 
Southwest, where temperatures are rising and droughts are 
increasing, blocking off the entire northerly route for 
migrating species will devastate their ability to move, adapt, 
and survive.
    You alluded to some of the ways that fences hurt wildlife 
in your testimony. Can you go into further detail on this issue 
for us?
    Ms. Walden. Yes, I will. I think that we are seeing 
examples of migrating wildlife. We are in a major biological 
diversity area in this valley. You are correct, that they do 
migrate north and south and south to north. And, as I pointed 
out in my testimony, it brings a great deal of economic 
activity to our region, which is important as well--from 
hunting, bird watching, wildlife watching, photography, et 
cetera.
    Building more walls and more roads--many ranchers like 
ourselves are concerned about this, because when you build more 
access areas like roads, the smugglers use them, too. This is 
an example of what is so complicated about walls and roads. I 
think our former governor said, ``When you build a 12-foot 
wall, we will find a 14-foot ladder.'' And, literally, when you 
cross over at the ports, you see big trucks with extension 
ladders on the top of them going all through parts of town.
    So, I would just say that the simple answers are not always 
so simple. I live daily with the consequences that my neighbors 
here describe, and I am concerned, too. But we have to work 
together so that we do not destroy the most important resources 
our country has for future generations.
    Mrs. Dingell. Thank you. Mr. Andrew, it is important to say 
that no amount of crime is acceptable, and it is not. I would 
be terrified if I had been kidnapped. As we try to reduce these 
instances, we have to look at the big picture.
    One of the questions that the core of the Majority claims 
about crime along the border is whether the crime rate has 
improved since the Bush years. The Majority has cited an 
example from a GAO study on public lands and Border Patrol 
access to try to demonstrate that the Memorandum of 
Understanding is not working, and that CBP is still held back 
from doing its job. But the GAO study was written back in 2010. 
Can you tell me whether each recommendation from that GAO 
report has been implemented?
    Mr. Andrew. Yes, thank you for that question. There were 
two recommendations. One had to do with preparing programmatic 
documents, and we have prepared a number of those. There was a 
Northern border EIS that we cooperated with Homeland Security 
on; there was a Section 106 programmatic agreement that we 
negotiated with the DHS and the Forest Service for the Northern 
and Southern border that expedited reviews under the Historic 
Preservation Act; and there have been a number of smaller ones 
on individual units where we provided rights-of-way or special 
use permits for road maintenance and access.
    The other recommended action, I believe--and this is 1138, 
the report from 2010--was an environmental cultural stewardship 
training that was called for, and we completed that 3 years 
ago, and that has worked quite well.
    Mrs. Dingell. Thank you. Ms. Walden, I am going to try to 
ask a question fast. Since then, the GAO has taken another look 
at crime along the Southern border. In a 2013 report, they 
found that GAO's analysis of data for the Southwest border 
counties with sufficiently complete data show that, generally, 
both violent and property crimes were lower in 2011 than in 
2004.
    For example, the violent crime rate in three states' border 
counties was lower by at least 26 percent in 2011 than in 2004; 
and in another state, lower by 8 percent in 2011 than in 2005. 
Is that consistent with your experience as a resident and 
business owner?
    Ms. Walden. Absolutely. We are never going to eliminate 
crime 100 percent; but we have seen a sharp decline in crime 
and violence, particularly in the last 5 years.
    Mrs. Dingell. Thank you, Mr. Chair.
    Mr. Gohmert. Thank you, Mrs. Dingell. At this time the 
Chair recognizes the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Dr. Hice. Thank you very much, Mr. Chairman. Thank you for 
having this hearing, and to each of our panelists, we 
appreciate you being here.
    I must say that I am disappointed that the Department of 
Homeland Security declined to provide a witness for us today. I 
serve on Oversight and Government Reform, and the Subcommittee 
on National Security. Last month, we had a hearing there in 
which Ronald Vitiello, who is the Acting Director of Customs 
and Border Patrol, was there. I have a clip. I wanted you to 
see a little bit of my questioning to him, which is very 
applicable to today's hearing.
    [Video shown.]
    Dr. Hice. All right. Mr. Chairman, thank you and the staff 
for providing that clip. His answers were extremely vague. In 
fact, they were not answers to the question. When we are 
dealing with border security, answers like, ``As soon as 
possible'' doesn't cut it. It just doesn't cut through it.
    So, Mr. Andrew, I would like to come back to you with some 
of the same questions that I asked Mr. Vitiello last month. 
What is a reasonable time for the Border Patrol to wait for a 
permit from Interior?
    Mr. Andrew. Well, it is a difficult question to answer in a 
general way. Some of the activities that Border Patrol would 
request, such as placement of a mobile surveillance vehicle, it 
could be very quickly; in a day or two, we could have pre-
approved sites----
    Dr. Hice. What is a reasonable time for a permit?
    Mr. Andrew. Well, it depends on the degree of what is being 
proposed. If it was something like a----
    Dr. Hice. OK. What about, say, a radio tower, a 
communications tower?
    Mr. Andrew. Well, in south Texas we, have remote video 
surveillance towers that we are working with Border Patrol 
right now, about 30 for the first wave.
    Dr. Hice. What is a reasonable time?
    Mr. Andrew. To give you the time frame, they began their 
planning for it probably a year ago, something like that. And 
they have engineering work to do, contracting work, and so on. 
So, we are trying to run the environmental reviews for that, 
and we are successful so far with running those in parallel.
    Dr. Hice. All right. These are simple questions. I am 
wanting yes/no type answers. What is a reasonable time to 
expect? What about for road maintenance? What is a reasonable 
time?
    Mr. Andrew. Well, with road maintenance we have dealt with 
right-of-way permits, so they can do that as needed now in most 
locations.
    Dr. Hice. OK. What about the mobile surveillance system? 
You referred to that.
    Mr. Andrew. Yes. For example, Organ Pipe again. The G-BOSS 
antennas that came from Afghanistan were deployed within days 
of the request.
    Dr. Hice. What about forward operating bases?
    Mr. Andrew. I was going to mention that one. There was one 
I was involved in about 3 years ago, the boundary camp on 
Cabeza Prieta, between Cabeza Prieta and Organ Pipe. We 
received word that this needed to be built in about March of 
that year. It was in place by the end of the fiscal year; so 
that was about 6 to 8 months, I think.
    Dr. Hice. You have mentioned yourself--and, Mr. Chairman, I 
will yield back. Obviously, my time has expired. But the 
environmental issue--it seems clear to me that we are placing 
environmental priorities over our national security with all of 
this; and it is inexcusable, when permitting and some of these 
other requests take so long that what is needed for border 
security is no longer applicable.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Gohmert. Thank you, Mr. Hice. At this time the Chair 
recognizes the gentleman from Arizona, Mr. Grijalva, for 5 
minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. And just for the 
record, I agree with my colleague that it is unfortunate that 
Homeland Security could not have a representative here at this 
hearing. Maybe they are overwhelmed with all the other hearings 
that are going on that they are required to be at.
    But, let me read this part from their written testimony, 
``CBP and, by extension, the Department of Homeland Security, 
enjoy a close working relationship with the Department of the 
Interior and the Department of Agriculture that allows us to 
fulfill our border enforcement responsibilities while 
respecting and enhancing the environment.'' It goes on to 
explain what that relationship is and what the Memorandum of 
Understanding is.
    As was mentioned by Mr. Andrew, the pursuit issue is a non-
issue, because that is not impeded at all by any regulation or 
any impediment by Interior or the Department of Agriculture. I 
think that is important, and I wish they would have been here 
to validate those comments in their written testimony, so that 
we could ask the questions that my colleague was asking and 
that I intended to ask him, as well.
    At this point, if I may, Mr. Chairman, I ask unanimous 
consent to enter some documents into the record.
    Mr. Gohmert. Without objection.
    Mr. Grijalva. I will use part of my time for that. I submit 
the following documents: a January 2007 brief documenting the 
environmental impacts of the border fence; a May 2011 study 
documenting how barriers along the border would increase the 
number of species at risk; a 2014 study on the unintended 
environmental consequences of border fencing and immigration 
reform; a 2007 New York Times article, ``Environmental 
Consequences of the Border Wall in South Texas''; a 2016 
article on how a border wall would hurt the U.S. economy; a 
July 2013 report on why the U.S.-Mexico border is critical for 
the U.S. economy; a June 2011 study documenting the cost of 
border security; a May 2013 report on the importance of an 
economic relationship of Mexico and the United States; a May 
2013 report on the fallacy of enforcement only; a December 2014 
report documenting CBP programs that do not achieve intended 
results or recognize all the cost of operations; an October 
2011 report on why immigration enforcement without reform 
wastes taxpayer dollars; a May 2010 report on why immigration 
enforcement without immigration reform will not work; a 
September 2013 report on widespread Border Patrol abuses in the 
Southwest border; a May 2013 report on family separation and 
immigration enforcement; an April 2014 report on reconciling 
tough and human enforcement; a December 2015 report on 
documented and lengthy detention, deplorable conditions, and 
abuse and for-profit holding detention centers; a July 4, 2014 
report on humanitarian challenge at the border; and a report 
that discusses immigration and border politics throughout the 
history of this Nation.
    I mention that because Ms. Walden--and thank you for being 
here--talked about the multi-layered complexity of this issue 
that we are dealing with. And simplistic solutions are not 
going to do the job.
    Ms. Walden, you worked on the border and your family has 
been there for generations. As you look at the economic benefit 
to a good, vibrant economy in the region, and also the issue of 
enforcement, people want to make those mutually exclusive 
items. Are they?
    Ms. Walden. We have to work together. I just want to stress 
that. Our economies along the border are dependent on each 
other, Mexico and America. We could not do our farming and 
ranching without the labor, again, that mainly is of Mexican-
American descent. They have the skills, they have the work 
ethic, and they have the ability to work hard on the farm; and, 
as we all know, that is hard work.
    So, it is very important that we respect the culture, 
economy, trade, and inter-relationship between these two 
countries, and also to realize the climate of fear that some of 
these policies create among our workers when they are stopped 
and harassed unnecessarily by Border Patrol, for example. I 
could provide many examples of this, some of which I put in my 
testimony. But that does not do anyone any good. It detracts 
from our mutual goal, which is to lift up the economy of Mexico 
and to create a thriving economy and opportunities here in the 
United States.
    Mr. Grijalva. I yield back, Mr. Chairman.
    Mr. Gohmert. Thank you, Mr. Grijalva. At this time the 
Chair recognizes the gentlelady from American Samoa, Mrs. 
Radewagen, for 5 minutes.
    Mrs. Radewagen. I want to thank you, Mr. Chairman and the 
Ranking Member. I, too, would like to welcome the panel. Thank 
you for appearing today.
    Mr. Andrew, going all the way back to the 2010 GAO report 
on Border Patrol access to Federal land, the agents in charge 
of four separate stations reported that land management laws 
are impacting the security status of their jurisdiction. What 
have you done to work with these stations to ensure that 
environmental restrictions are not endangering the country?
    Mr. Andrew. Thank you for the question. There are a number 
of things that have happened since that report was prepared. 
One example, in cooperation with Border Patrol, was the 
establishment of public lands liaison agents in each sector and 
borderland management task forces that meet periodically in 
each of the sectors. That has helped to build relationships 
between us and the Border Patrol, and to better understand what 
their mission is and what their concerns and needs are. And, 
frankly, we have just gotten better at knowing each other and 
understanding what the needs are, and figuring out ways to get 
that work done quicker.
    Mrs. Radewagen. Ms. Chilton, in your conversations with 
Border Patrol, how do they explain leaving vast areas, such as 
your ranch, unprotected?
    Ms. Chilton. Mr. Chairman and ma'am, thank you for that 
question. I cannot explain why they have made the decision to 
secure the line so far from the boundary. I can tell you what 
difficulties they have faced, which is that, what we see on the 
ground, in terms of permit time, for the actions that they have 
told us they need to take in order to carry out their mission--
that means road improvement, a road paralleling the actual 
border. Right now, the road paralleling the border is 20 miles 
from it. It is in no way functional.
    They need forward operating bases. Those discussions have 
been ongoing with the Forest Service and perhaps with Fish and 
Wildlife, because part of this is Fish and Wildlife property, 
part of it is Forest Service, and part of it is private land. 
On private land, they have the go-ahead. On Federal land, it 
has been more than 5 years, and those roads are not one tiny 
bit improved over what they were 5 years ago.
    There is no forward operating base, although we made that 
offer of our private property years ago. We have taken high-
level Border Patrol officials to that site and shown them. One 
thing one said to us was, ``My, it looks different down here 
from what it looks like from the air.'' It was his first visit 
to the actual border in a section that they know is very 
actively used for drug traffic.
    The issues of wildlife, plants, and biological opinions are 
being allowed to be a smoke screen that covers up the fact that 
we have decided, nationally, not to secure the border.
    Mrs. Radewagen. Thank you, Ms. Chilton. My time is short.
    Commissioner Pinkerton, as someone with decades of 
experience in border security, particularly on Federal land, 
how do environmental restrictions hamper border security 
operations, and how has this problem become better or worse?
    Mr. Pinkerton. Well, I would echo that the Memorandum of 
Understanding has been put in place to solve some of these 
problems. To be able to improve upon border security, the 
access is of the utmost importance.
    Where these roads exist, I don't believe you should have to 
go through and get another environmental impact statement put 
on it before you can drive a vehicle across it again. I don't 
believe your law enforcement should be hampered by having to 
stop every 4 or 5 miles to open another locked gate, which is 
quite difficult, especially when there is a foot or two of 
snow.
    All of these elements add to eliminating the ability for 
the Border Patrol agents to respond to a corresponding area at 
an appropriate time. To improve it, make these short little 
hurdles go away and put the Border Patrol back in a place of 
patrolling.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. I thank the gentlelady. At this time the Chair 
recognizes the gentleman from Arizona, Mr. Gallego, for 5 
minutes.
    Mr. Gallego. Thank you, Mr. Chair. This question is for Ms. 
Walden.
    I have to say, I am a little puzzled by this gathering. 
This is supposed to be a hearing about public lands at the 
border, but one of the witnesses barely mentions public land 
and the testimony is mostly about other problems with border 
management. Another witness talked about an incident, a scary 
incident, no doubt, but an incident that did not appear to 
happen on public lands. Half of the testimony of the third 
witness has nothing to do with being close to the border, but 
just about how we should be cutting down our national forests. 
So, it does make me wonder, ``What is the agenda here? '' But 
we will try to work together on that.
    Ms. Walden, in your testimony you describe some of the 
effects of the existing 700 miles of fence and wall. Some on 
the other side of the aisle have expressed support for a bigger 
wall, a 35- to 50-foot wall along the entire Southern border. 
But would a bigger wall actually stop these unauthorized border 
crossings?
    Ms. Walden. In my opinion, no. As our former Governor 
Napolitano said, ``When you build a 12-foot wall, they will 
find a 14-foot ladder, or they will tunnel under it, or they 
will find other ways to get around, if we don't have a 
comprehensive system of identifying who is valid to be in this 
country and who should not be.''
    Mr. Gallego. Thank you.
    Mr. Andrew, I have seen estimates that constructing a wall 
could cost upwards of $25 billion. Since my colleagues on the 
other side of the aisle cannot seem to find money to help ease 
some of the humanitarian crises among, for example, our people 
in Puerto Rico; they cannot find $1.9 billion just to fight 
Zika, which is clearly a problem that is coming over the 
border; and cannot pass a budget even when the top-line budget 
number was already settled last year, I am going to guess that 
they would not be able to find over $25 billion for a 2,000-
mile wall. So, that leaves Mexico, as we keep hearing in the 
Presidential election.
    In all the interactions you have had with CBP, who could 
not be here today because the Republicans have slashed their 
funding, according to the letter they sent to the Chairman in 
response to the invitation to testify, have you ever heard 
anyone from the agency or from DHS talk about how they are 
going to pay for that wall?
    Mr. Andrew. No, I have not.
    Mr. Gallego. OK. Well, I hope the next time we have a 
scattershot hearing like this, we can at least invite Mexico, 
so that we can hear them describe why they want to build a wall 
around their border, or how they will fund it. Or we could 
invite Mr. Trump. And I yield back.
    Mr. Gohmert. I thank the gentleman. At this time I yield to 
Mr. Gosar from Arizona for 5 minutes.
    Dr. Gosar. Well, I should attend this hearing more often to 
be entertained by the other side. Wow, interesting.
    Hey, Sue, how are you doing?
    Ms. Chilton. I am doing just fine.
    Dr. Gosar. Good seeing you again. I am very appreciative of 
you and your husband taking my staff and I down there to the 
border, and on your property. I certainly appreciate it.
    So, you know, Sue, I was taken back when we came down 
there, how--we went to the fence, and we saw this barbed wire 
fence that, if I wasn't a decrepit old guy, I could just jump 
right on over.
    Ms. Chilton. Yes.
    Dr. Gosar. I am taken back by that. In your opinion, is the 
border secure?
    Ms. Chilton. Mr. Chairman, Mr. Gosar, of course not. And on 
the subject of the wall, of course you could find a 14-foot 
ladder to get over a 12-foot wall, if no one is there 
patrolling it. But that is the issue. You have to have the 
combination that makes the border secure. That means--yes, the 
wall; yes, a road patrolling it; yes, better communications for 
the Border Patrol; and yes, forward operating bases.
    You cannot do half of a medical recipe to solve a problem 
and hope you are going to get the patient cured. You have to do 
the whole thing, and that is the case on our border, too.
    Dr. Gosar. That is exactly right. And it is also about 
enforcing the rule of law. And if we were here at the expense 
of the taxpayer to empower Mexico's economy--I don't find that 
in my Constitution here, and that is what I thought I heard, is 
that we are here to build the economy of Mexico. I hope that is 
not the case. The case is we should be caring about this 
country; and if you are not supposed to be here, you are 
supposed to enforce the border aspects.
    Now, the other thing I was taken back by is the amount of 
trash. Is that good stewardship of our Federal lands, Sue?
    Ms. Chilton. Most definitely, Mr. Chairman and Mr. Gosar, 
trash is an issue; it is an environmental issue. The Border 
Patrol itself has told us that the persons crossing leave an 
average of 8.5 pounds per person. My husband multiplied that 
times the number of people that were reported to be apprehended 
in the area, and I might have to consult with him about how 
many tons of trash it was. By the time he multiplied it, it 
was, I think, 12,000 tons of trash, just in our sector.
    Dr. Gosar. Yes. I want to make sure I didn't miss anything. 
So, for the drug cartels, we have a sensitivity training in 
regards to conservation and endangered species. Are you 
familiar with any of that?
    Ms. Chilton. I understand your question very well. No. The 
wall, or whatever protection we have from the Border Patrol, 
also protects the species. Right now the species are laid open 
to the traffic that comes through. The Sinaloa Cartel is not 
saying, ``Oh, no, let's not go there, that is a wilderness 
area.'' They are saying, ``Oh, yes, let's go there, that is the 
part they can't patrol.''
    Dr. Gosar. Yes. It is a sad quandary. And last time I 
looked, you were a citizen of the United States, right?
    Ms. Chilton. Oh, most definitely.
    Dr. Gosar. And your property was in the defined parameters 
of the United States of America, right?
    Ms. Chilton. Yes, sir.
    Dr. Gosar. And you are entitled to the same protections as 
somebody, let's say, in Glendale, Arizona or in Springfield, 
Illinois?
    Ms. Chilton. It looks like we are entitled to it, but don't 
have it.
    Dr. Gosar. Yes, that is unfortunate.
    Mr. Andrew, I have just a short amount of time. In your 
testimony, you state and I quote, ``We believe that we have 
been and will continue to be successful in securing our borders 
and conserving our Federal lands.'' Massive numbers of aliens 
are crossing our borders illegally and damaging our Federal 
lands. You find that as a term of success?
    Mr. Andrew. Not when it is put that way. I was referring to 
the Department of the Interior lands that I am responsible for 
that have improved in recent years, in terms of traffic and 
trash and----
    Dr. Gosar. You still counted that as success.
    Mr. Andrew. I count it as an improvement. It is a work in 
progress, for sure.
    Dr. Gosar. And would you say that more empowerment of local 
and Border Patrol actually facilitates that?
    Mr. Andrew. Oh, I would agree. We have seen great benefits 
from the Border Patrol's----
    Dr. Gosar. And would you also say that enforcement of the 
current laws by U.S. attorneys, let's say down in Tucson, would 
actually help, too, instead of allowing people to just go free?
    Mr. Andrew. Increased border security benefits public 
lands, for sure, yes.
    Dr. Gosar. Thank you very much.
    Mr. Gohmert. I thank the gentleman and I will recognize 
myself for 5 minutes.
    Ms. Walden, you pointed out a couple of times that this 
Administration, including Secretary Napolitano, has said if you 
build a 12-foot wall, people will use a 14-foot ladder. I want 
to applaud the Obama administration in their new jobs program 
that was announced this morning. Obviously, it is a jobs 
program in the ladder market, because they announced this 
morning that they want to increase the height of the fence 
around the White House by 5 feet. Obviously, that is a jobs 
program to build taller ladders for the Washington, DC area. 
And hopefully there will be plenty of people employed both to 
raise the height 5 feet around the White House, and then also 
to construct the ladders.
    As I have mentioned to the Secret Service head before in 
another hearing in another committee, either the fence around 
the White House does not work and needs to be completely 
removed; or it is true that fences actually do work, when 
constructed appropriately, and we should have one to protect 
ourselves on the border.
    Ms. Walden, you had also mentioned that you see the Border 
Patrol everywhere. And I would humbly submit, that is part of 
the problem. They can be seen in areas where the public can go. 
The problem is the drug traffickers go in the area where you 
cannot readily go without getting arrested or getting in 
trouble. And those are the areas the drug traffickers are the 
only ones that get to use. That is why we see the footage from 
the Chiltons' cameras showing drug traffickers just having free 
access back and forth.
    Mr. Andrew, I wanted to ask you, last year I made a request 
from both the DHS and the Department of the Interior for 
documents and communications related to Border Patrol access to 
Federal land and cooperation on the declaration of the Organ 
Mountains-Desert Peaks National Monument in 2014. Were you 
aware of that request?
    Mr. Andrew. Yes, Mr. Chairman.
    Mr. Gohmert. Do you know how many of your own personal 
documents were supplied by the Department of the Interior?
    Mr. Andrew. I don't know the page number. Not a lot----
    Mr. Gohmert. Basically, there were two. That seems rather 
improbable; but as I mentioned, we made a request for the same 
type documents from the Department of Homeland Security, and it 
was the same document request that the Interior Department got, 
and they provided a vast number of documents to you, from you.
    So, I just wanted to ask. Are you aware that the 
possibility exists in the next administration that people who 
refused or obstructed legitimate production requests could be 
answering with their jobs, if not more? You realize that is a 
possibility when you get a request, right?
    Mr. Andrew. I didn't know that, no. But I do now.
    Mr. Gohmert. Yes. Well, let me ask you this. When did 
Interior notify the Border Patrol that the Organ Mountains-
Desert Peaks National Monument would be created?
    Mr. Andrew. I don't think I could answer that. I was not 
really involved in the designation, so----
    Mr. Gohmert. Well, our document from the day of the 
proclamation shows that you were unable to supply the 
proclamation to the Border Patrol because it was being--and I 
am quoting--``held close.'' But ultimately, the Border Patrol 
did not get to have input, as the memorandum suggested that 
there would be.
    I know everybody keeps talking about the Memorandum of 
Understanding. But when a national monument is just about to be 
declared by executive action, it really seems that if border 
security, national security, or people like the Chiltons' 
security is being considered, that Border Patrol would be asked 
for input. And apparently, that did not happen until it was too 
late.
    I enforce the rules of time on myself, and my time has 
expired. The witnesses have been gracious. We had to go through 
a vote, you were gracious to wait for us to come back. I know 
that there are additional questions that some of us may have, 
and I would ask that questions be submitted within 10 days and 
provided to the witnesses. Any requests for questions that 
there may be, I would ask and require those be answered within 
10 days after they are received by the witnesses.
    Anybody have a problem with that, of our witnesses?
    Mr. Andrew. No, Mr. Chairman.
    Mr. Gohmert. Mrs. Radewagen, I understood you had a 
question. Is that something you could submit to the witnesses 
in writing?
    Mrs. Radewagen. Yes, Mr. Chairman.
    Mr. Gohmert. OK. Let's do that. I have some questions, too, 
that I would like to submit. We will combine our questions and 
submit to the appropriate witnesses.
    We appreciate everyone's patience today. Once again, I want 
to thank the witnesses for coming. We know you do not do this 
because of the pay you get, since you do not get paid; but we 
know you care about your country, and that is why you are here. 
Thank you very much.
    At this time, the hearing is adjourned.

    [Whereupon, at 4:33 p.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

 1.   Written Statement from U.S. Customs and Border Protection 
            at the Department of Homeland Security in regards 
            to the hearing.

 2.   Letter from the Department of Homeland Security addressed 
            to Chairman Gohmert declining invitation to testify 
            at the hearing, and directing U.S. Customs and 
            Border Patrol to assist the subcommittee.

 3.   Written Statement from Roger McManus, Tucson, Arizona, in 
            response to the hearing.

 4.   Video Clip from Rep. Jody Hice, showing his questioning 
            of a Mr. Vitiello from DHS regarding permitting 
            delays on Federal lands.

                Submissions by the Hon. Raul M. Grijalva

 5.   American Civil Liberties Union, Regional Center for 
            Border Rights--Report: Guilty Until Proven 
            Innocent: Living in Mexico's 100-Mile Zone (May 
            2015).

 6.   American Civil Liberties Union of Arizona--Statement of 
            James Duff Lyall, Staff Attorney, at Congressional 
            Ad-Hoc Hearing: Redefining Border Security: Border 
            Communities Demand to be Heard in the Comprehensive 
            Immigration Debate (Sept. 2013).

 7.   American Immigration Council--Special Report: Children in 
            Danger: A Guide to the Humanitarian Challenge at 
            the Border (July 2014).

 8.   American Immigration Council--Special Report: Hieleras 
            (Iceboxes) in the Rio Grande Valley Sector: Lengthy 
            Detention, Deplorable Conditions, and Abuse in CBP 
            Holding Cells (Dec. 2015).

 9.   Diversity and Distributions--Academic Journal Article: 
            Conservation biogeography of the US-Mexico border: 
            a transcontinental risk assessment of barriers to 
            animal dispersal (2011).

10.   The Desert Sun--Editorial: How a Border Fence Destroyed a 
            Tight Community: An Existing U.S.-Mexico Border 
            Fence Split Two Neighboring Rural Towns, Cutting 
            Ties and Dividing Families (2016).

11.   U.S. Department of Homeland Security, Office of Inspector 
            General--Report: CBP's Use of Unmanned Aircraft 
            Systems in the Nations Border Security (May 2012).
12.   U.S. Department of Homeland Security, Office of Inspector 
            General--Report: U.S. Customs and Border 
            Protection's Unmanned Aircraft System Program Does 
            Not Achieve Intended Results or Recognize All Cost 
            of Operations (Dec. 2014).

13.   BioBriefs--Academic Journal Article: The Environmental 
            Impacts of a Border Fence (January 2007).

14.   AS/COA, Get the Facts--Fact Sheet: Our Border & the 
            Economy (July 2013).

15.   American Immigration Council--Immigration Impact--
            Editorial: How a Border Wall Would Hurt the U.S. 
            Economy (March 2016).

16.   American Immigration Lawyers Association--Report: Border 
            Security: Moving Beyond Past Benchmarks (January 
            2013).

17.   Immigration Policy Center--Report: Perspectives: Back to 
            the Border, A Historical Comparison of U.S. Border 
            Politics (Sept. 2010).

18.   Immigration Policy Center--Report: The Fallacy of 
            ``Enforcement First'': Immigration Enforcement 
            Without Immigration Reform Has Been Failing for 
            Decades (May 2013).

19.   Immigration Policy Center--Report: Fiscally 
            Irresponsible: Immigration Enforcement without 
            Reform Wastes Taxpayer Dollars (Oct. 2011).

20.   Immigration Policy Center--Report: Lost in the Shadow of 
            the Fence: The Important Economic Relationship of 
            Mexico and the United States (May 2013).

21.   Immigration Policy Center--Report: Perspectives: Is More 
            Getting Us Less? Real Solutions for Securing Our 
            Border (Feb. 2011).

22.   Immigration Policy Center--Report: Throwing Good Money 
            After Bad: Immigration Enforcement without 
            Immigration Reform Doesn't Work (May 2010).

23.   International Policy Report--Report: Policy on the Edge: 
            Failures of Border Security and New Directions for 
            Border Control (June 2011).

24.   International Organization for Migration--Report: Fatal 
            Journeys: Tracking Lives Lost during Migration 
            (2014).

25.   Journal on Migration and Human Security--Academic Journal 
            Article: In Harm's Way: Family Separation, 
            Immigration Enforcement Programs and Security on 
            the US-Mexico Border (2015).

26.   Migration Policy Institute--Report: The Deportation 
            Dilemma: Reconciling Tough and Humane Enforcement 
            (April 2014).

27.   The New York Times--Editorial: Border Fence Work Raises 
            Environmental Concerns (Nov. 2007).

28.   Politico--Editorial: The Green Monster: How the Border 
            Patrol became America's most out-of-control law 
            enforcement agency (2016).

29.   Texas Law--Editorial: The Texas-Mexico Border Wall--
            Affected Communities (2016).

30.   The Center for Latin American Studies, University of 
            Arizona--Report: In the Shadow of the Wall: Family 
            Separation, Immigration Enforcement and Security, 
            Preliminary Data from the Migrant Border Crossing 
            Study (March 2013).

31.   Arizona Journal of Environmental Law & Policy--Academic 
            Journal Article: Unintended Consequences: The 
            Environmental Impact of Border Fencing and 
            Immigration Reform (2014).

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
